<html>
<title> - NOMINATION OF JOHN S. PISTOLE, TO BE ADMINISTRATOR OF THE TRANSPORTATION SECURITY ADMINISTRATION AND ASSISTANT SECRETARY OF THE U.S. DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 111-1033]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1033
 
                     NOMINATION OF JOHN S. PISTOLE,
                       TO BE ADMINISTRATOR OF THE
                 TRANSPORTATION SECURITY ADMINISTRATION
                     AND ASSISTANT SECRETARY OF THE
                  U.S. DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 10, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
67-573                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6106110e210214121509040d114f020e0c4f">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                 Ann Begeman, Republican Staff Director
             Brian M. Hendricks, Republican General Counsel
                  Nick Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 10, 2010....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     5
Statement of Senator DeMint......................................     6
Statement of Senator Begich......................................    27
Statement of Senator Warner......................................    30
Statement of Senator Thune.......................................    32
Statement of Senator LeMieux.....................................    35
Statement of Senator Dorgan......................................    39

                               Witnesses

John S. Pistole, Administrator-Designate, Transportation Security 
  Administration, and Assistant Secretary-Designate, U.S. 
  Department of Homeland Security................................     7
    Prepared statement...........................................     9
    Biographical information.....................................    10

                                Appendix

Response to written questions submitted to John S. Pistole by:
    Hon. Daniel K. Inouye........................................    47
    Hon. Bill Nelson.............................................    47
    Hon. Frank R. Lautenberg.....................................    48
    Hon. Amy Klobuchar...........................................    49
    Hon. Tom Udall...............................................    50
    Hon. Kay Bailey Hutchison....................................    51
    Hon. Olympia J. Snowe........................................    54
    Hon. Jim DeMint..............................................    59
    Hon. John Thune..............................................    59
    Hon. Sam Brownback...........................................    61


                  NOMINATION OF JOHN S. PISTOLE, TO BE
                  ADMINISTRATOR OF THE TRANSPORTATION
                      SECURITY ADMINISTRATION AND
                       ASSISTANT SECRETARY OF THE
                  U.S. DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        THURSDAY, JUNE 10, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Good morning, everybody. This hearing comes 
together, and the two most important members of this committee 
are here, present, and ready to work.
    We are here today to consider John Pistole to be, at last, 
hopefully, almost definitely, the Administrator of the TSA.
    It's embarrassing that such an enormous undertaking doesn't 
have the leadership that it needs. I am convinced that you can 
provide that leadership on the basis of work we've done in the 
Intelligence Committee and on basis of the conversations that 
we've had about all of this. There's no question in my mind 
about it.
    We cannot ignore the fact that for far too long we just 
have--we've been without one, and we paid a terrible price for 
one. And I want to talk about that in the questions.
    This country has endured an attempted Christmas Day attack 
aboard an airplane bound for Detroit; an attempted Times Square 
bombing, where the terrorist was pulled off the plane that was 
about to take off for Dubai and they pulled him off; and just 
this weekend, two men were arrested, again at JFK, as they 
attempted to board a flight to Egypt on their way to Somalia. 
Well, that's a good combination--and they were planning on 
joining an international terrorist organization. We've got to 
get this all right.
    Our vast and open transportation system, which is 
classically American in its nature, is part of everybody's 
lives in small towns, in big cities, and we understand that. 
They connect our communities to a wider world, which we need. 
The enormous reach is what makes our transportation system such 
a powerful tool for terrorists. We open ourselves, because we 
are that nature, and we pay a price for it, because they can 
take advantage of it. Single purchase, cash, all the rest of 
it. It's not even really that hard, but it is going to have to 
be.
    And they're constantly looking for new ways to make 
attacks, to do things. They're single operators. They can be 
less sophisticated, they don't have to be as highly trained. 
They can get this all off the Internet. They can do it because 
they're mad at America. They could be Americans; and they are, 
in fact, some of them. And that's going to grow. Wherever 
people are having trouble economically, in the Middle East or 
in this country, and people get mad and frustrated, they want a 
way out, they want something to belong to, which they can say 
gives them identity. And, unfortunately, terrorism is one of 
the ways that they can do that and feel like they're strong men 
and women.
    As I indicated, we've had concentrated discussions on a 
variety of things over the years, on the Intelligence 
Committee. That's very important to me. I know what some of the 
stuff that they're thinking about is, and what has been 
attempted and not worked, and what has been attempted and has 
worked. And it's all very upsetting.
    So, TSA takes on this tremendously new dimension of, 
needing to make lines more efficient, to get people less angry, 
all up against a budget freeze--which we have to talk about--
and, at the same time, be a step ahead, if possible, of 
terrorists.
    So, we need an experienced and skilled Administrator. And 
we need that person now, to lead the TSA and to lead the 
workforce, because people can work hard, but if they don't have 
a leader, something happens to them eventually. And you, I 
think, are that kind of leader. Protecting our country against 
future attacks. We just need all of this, period.
    I, myself, just speaking as one Senator, am confident that 
you, John Pistole, are ready. You're qualified to lead this 
agency effectively.
    As the FBI's deputy director, Mr. Pistole is currently the 
Bureau's second in command. That's the--just to consider that--
Bob Mueller, then John Pistole--that's a fairly famous, large 
agency, which does things all over the world, and you've been 
deputy for that. And you've worked with it for 27 years, which 
is a tad more than a learning experience.
    You've been a special agent. You served in many different 
leadership roles, focusing on civil rights, white-collar crime, 
leading field officers, and instructing new agents. You 
participated in the investigative and recovery efforts for the 
Egypt Air Flight 990 crash off the coast of Rhode Island.
    And you were later appointed as an inspector to the 
inspection division, in Washington D.C., conducting evaluations 
and audits of FBI field offices and headquarters divisions. 
Well, that was giving you the run of the campus to find out 
what was wrong--the run of the Nation.
    After September 11, in 2001, Director Mueller appointed 
you, John Pistole, to the FBI's counterterrorism division, 
where you testified before the 9/11 Commission. I remember that 
testimony. We all watched all of it--on a panel titled, 
``Preventing Future Attacks in the United States.''
    With such diverse experience, such a broad investigative 
and national security background, and the disciplined nature of 
the John Pistole that I know--the hard worker, tough guy--I 
firmly believe that you have what it takes to impact this 
agency. I'm just speaking for myself and not necessarily for 
others.
    So, to move forward, we need to make that change. We need 
to have an effective leader at TSA.
    I think it's one of the most difficult positions in all of 
Washington, because you have all of America, in magnificent 
sequence, getting mad at you for their inconveniences. And I 
think there are going to be more inconveniences. I think there 
are going to have to be more inconveniences if we're going to 
really do the terrorism thing well. And a lot of people won't 
like that. It's just such an important job.
    Let me end up by saying that Commerce Committee has a 
significant role in homeland security oversight. Others don't 
seem to want to recognize that, but we do, and we know it, and 
we take it very seriously.
    This committee is currently drafting two very important 
security bills. One is the TSA reauthorization. The other is 
the port security bill. We hope to have those ready to 
introduce within several weeks--within a week or two.
    Mr. Pistole, should you be confirmed, I very much intend to 
work with you to make sure that TSA succeeds. It's just so 
important. It's life and death stuff, and it's at the heart of 
American traveling and the essence of freedom that people feel. 
And those things come in conflict at some point. I expect you 
and the administration to communicate with and work with 
Congress to make sure that TSA has the funds it needs.
    So, I thank you. I've read your FBI reports. They were 
utterly boring they were so clean.
    [Laughter.]
    The Chairman. I yield now to my Ranking Member, my partner, 
Senator Kay Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you, Mr. Chairman.
    Mr. Chairman, I really appreciate that you called this 
hearing so quickly, because there is no question that this 
important agency not having a head that has a strategy and a 
plan and an ability to manage 50,000 people across the country 
and the world is not the way it should be. And so, I appreciate 
that we are acting quickly.
    And, Mr. Pistole, you and I have met. And I, too, have read 
your FBI report. And I would concur with my Chairman. I'm going 
to tell you a funny story later. But, I think that, honestly, I 
believe the President has made the right decision this time.
    I'm not going to read an opening statement, but just a 
couple of points.
    As you know--and we talked about this--I am very concerned 
about this obvious pressure to allow collective bargaining by 
TSA employees. I am adamantly against that--I will ask you that 
question, as I told you I would--because law enforcement and 
security personnel are just in a different category. And that 
is recognized from local government all the way to the FBI and 
others.
    You can't have 8-hour days. You have to be able to respond 
to emergencies. And you have to be willing and want to do that. 
To take this job, as TSA inspector, you have to want to keep 
America safe. And you have to be willing to go the extra mile 
and not be a 9-to-5 type of employee. There are other jobs for 
you, if that is what you want to do.
    So, I will be asking you about that. And as we go forward, 
if you are confirmed, we're going to ask you, down the road, 
what the status of that is, because you'll have to make that 
decision. And I hope that, with your background, it is the 
right one.
    And the other point that I would just make is that you, 
having served in the FBI, are serving in an agency that has, 
what, 102 years of history, but you're going in to be the top 
of an agency that has been in business for 9 years. And there 
have been a few stumbling blocks.
    We were here when we were writing the bill that created the 
TSA. And we looked carefully at all the different ways to 
organize it, and we gave it to Homeland Security, and we made 
it a separate agency there, and we wanted to make sure that we 
do all of the right things for this important position.
    And so, there have been kinks, but largely it has worked. 
And I hope that you will be the one that sets the standards for 
the future, for the way the agency operates. And it has to be 
efficient, and it has to also not encroach on the traveling 
public to too great a degree. And there's just a fine balance 
there.
    I want to say that, in my experience in the airports, for 
instance, the employees at TSA do a great job, and they're 
friendly, and they're nice, and they understand the 
frustrations of the passenger that has to be the one who is 
screened. And I certainly have had that experience myself, and 
it's not fun. But, they've been very, very nice and polite and 
understanding.
    So, I think that it is a good agency, in the main. But, we 
also have other, besides air, issues. We have ports and will 
want input on port security, because, as I mentioned to you, in 
my home State of Texas we have the second largest chemical 
complex in the world right next to a port. And so, we need to 
make sure that we're doing everything to secure our ports, our 
trains, all of the buses, all of the traveling modes that our 
people use and that are used in commerce.
    So, it's a big job. I think you're up to it. And I have 
seen nothing that would give me pause. And the people who 
really know you and have worked with you, which I haven't, also 
give you the thumbs-up.
    So, I'm looking forward to a working relationship with a 
no-nonsense law-enforcement-background person, like yourself, 
that will get on the job and not take no for an answer.
    Thank you very much.
    The Chairman. Thank you very much, Senator Hutchison.
    We would welcome Senator DeMint to give a very, very short 
comment, and Senator Begich to make a very short comment, and 
then we'll go to you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Mr. Chairman, thank you for convening today's hearing. The 
Transportation Security Administration (TSA) performs a vital mission 
at the Department of Homeland Security (DHS) in helping to protect the 
security of the traveling public. Yet, TSA has been without an 
Administrator since January 2009. It is important for our Committee to 
review the qualifications and priorities of the President's third 
nominee to fill this critical position, and I am hopeful that the 
country will soon have a TSA Administrator confirmed and on the job.
    I want to welcome Mr. Pistole, and thank you for your willingness 
to serve as the TSA Administrator. Your 26 year career at the Federal 
Bureau of Investigation (FBI) is commendable, as is your willingness to 
continue your career in public service.
    The job of TSA Administrator brings with it the responsibility of 
assuring not only the security of all modes of transportation, but also 
the economic viability of the country's transportation system and the 
sustainment of the free flow of commerce. If confirmed, the job before 
you will be extremely challenging, and the decisions you make may have 
far-reaching effect. Given your background at the FBI, you will 
undoubtedly be familiar with the threats our country faces, yet your 
management skills will also be put to the test, given that you would 
assume the helm of an agency with over 50,000 employees scattered 
throughout the country. With that in mind, I want to mention several 
issues that I believe will be of importance for the next Administrator 
on day one:
    First, is the issue of allowing collective bargaining for the 
country's transportation security officers (TSOs), or screeners. I 
would like to note that Federal law prohibits screeners from striking; 
and all the previous TSA Administrators have maintained that allowing 
screeners to collectively bargain would negatively impact TSA's 
fundamental security mission. With your background in security, Mr. 
Pistole, I am sure you can appreciate the need for TSA to have a 
flexible workforce which can react quickly to emerging threats. While 
the FBI does not have unions, I wonder whether the FBI could do its job 
as effectively, if the agents had collective bargaining authority. This 
Committee will be extremely interested in how you address this issue.
    Second, I strongly encourage TSA to work to develop better 
relationships with all of its stakeholders. The success of the agency--
and the security of our nation--is linked to cooperation and trust 
between industry and government. Over the years, constituents and modal 
industry stakeholders alike have noted that TSA too often pays lip-
service to partnerships and frequently tries to institute policies that 
have great economic impact without first seeking industry input. A safe 
and effective security system is mutually beneficial to industry and 
government alike; properly coordinating to create a seamless and secure 
environment will be a daily challenge. The traveling public wants and 
deserves a security experience that is effective, but without being 
overly cumbersome or economically unrealistic.
    Third, as is the case with several other government departments and 
agencies, TSA often seems to find itself playing catch-up, fighting the 
last terrorist battle, and getting caught in the trap of spending 
hundreds of millions of dollars on unproven equipment and programs. I 
believe that the head of TSA needs to be willing to make the tough 
decisions about programs and projects that do not work as desired, and 
focus on making TSA an agency that is ahead of the curve, rather than 
behind it. Mr. Pistole, if you are confirmed, I hope that you will 
bring your leadership experience and valuable intelligence and law 
enforcement expertise to an agency that could really benefit from the 
unique professional background you hold.
    In this country, we are heavily dependent upon the openness and 
security of our transportation systems, which affords the free flow of 
goods and travelers each day. We place great trust in TSA, much like 
the FBI, to do its job effectively and efficiently. However, in order 
to do the job properly, TSA will need long-term leadership with a 
clear, yet flexible and nimble, strategy, to identify, address and act 
upon the threats of today and tomorrow. Unfortunately, much like our 
transportation systems, our threats are vast and reach across our 
country, and the world. While balancing those two conflicting systems 
will be tremendously difficult, it is paramount.
    Next month, the FBI will celebrate its 102nd anniversary. By 
contrast, TSA is in only its ninth year of existence. But, since 9/11, 
the FBI has had to re-invent itself as a more prevention-oriented, 
intelligence-driven agency, and you have played a leading role in that 
effort. I will want to hear how your experience managing change at the 
FBI would inform your leadership of the TSA.
    Mr. Chairman, thank you again. Mr. Pistole, I look forward to your 
testimony.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. It's not very, 
very short, but it is reasonably brief, by senatorial 
standards. Thank you.
    The Chairman. This is a bad beginning.
    [Laughter.]
    Senator DeMint. I just----
    Senator Hutchison. We go by House standards over here.
    Senator DeMint. Yes, the----
    Senator Hutchison. One minute.
    Senator DeMint.--the one minute.
    [Laughter.]
    Senator DeMint. Mr. Pistole, it's good to see you again. 
Thank you for coming by my office. I enjoyed our conversation. 
And I believe you are well qualified for this position.
    I want to make the same point to you that I've made to 
other nominees, that the ability of TSA to be able to quickly 
respond to threats is essential to their effectiveness.
    Abandoning the current policy that prohibits collective 
bargaining by transportation security officers will 
significantly undermine TSA's ability to respond to threats, 
and protect the Nation. And it's a change that I hope you will 
counsel the President against.
    I implore you to approach every policy issue at TSA with a 
simple question, ``What will this do to improve security?'' We 
all know the President has made a political promise to the 
unions, in return for their support, to force collective 
bargaining onto over 50,000 transportation security officers, 
but, your promise has to be to keep the American people safe.
    I asked the Secretary of Homeland Security, a few months 
ago, this question, ``how will collective bargaining at the TSA 
will improve security?'' Her answer was, ``that the two weren't 
mutually exclusive.'' Her answer was illustrative, because 
clearly she couldn't come up with a good answer of why 
collective bargaining was actually going to improve security.
    When the Secretary of Homeland Security can't tell us how a 
change to Homeland Security policy will improve security, it 
should stop us in our tracks. This should be a clear message 
that collective bargaining at the Transportation Security 
Administration remains a threat to aviation safety, and the 
only reason to adopt collective bargaining is a payback to 
political allies.
    Having been a career civil servant who spent his life 
serving the Nation under administrations of both parties, I 
hope you will provide advice to the President that turns on 
that single question, ``How will this improve security?''
    As I've mentioned, collective bargaining will not only not 
improve security, it will have a direct negative impact on 
security.
    First, it will impose a 19th-century industrial personnel 
management model to a 21st-century Information Age threat. The 
threat we see in the aviation sector is creative and nimble, 
and our response needs to be creative and nimble. We need to 
continually improve what we do at TSA. The men and women who 
protect the aviation sector need to be able to quickly respond 
to changing counterterrorism tactics so we can thwart the 
tactics of our adversaries and protect passengers without 
having to get a signoff from a union boss. The Secret Service, 
the Coast Guard, the military, and the FBI, where you were 
second in command, realized this long ago, and they prohibit 
collective bargaining.
    Additionally, you can't have a security workforce that has 
rigid, standardized procedures. The standardized procedures 
that are part and parcel of a collective bargaining agreement 
are exactly the kind of procedures terrorists can survey and 
defeat. It's frustrating that the American Federation of 
Government Employees--on their website, they ask for exactly 
that. They ask, ``How would collective bargaining rights--what 
would it mean to you?'' The union states that they're promising 
that workplace rules will be improved and standardized. This is 
a threat to national security, and completely unacceptable, and 
I hope you will do everything you can to ensure that the union 
demands----
    [Chairman tapped the gavel.]
    Senator DeMint. Yes, sir. I'll just include the rest of 
this in my questions.
    But, I think you know your colleagues at the FBI will laugh 
at you if you ever try to make the case that security forces 
need third-party negotiations.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you, Senator DeMint.
    Mr. Pistole, we welcome you here. We would like very much 
for you to introduce your wife and two daughters, and then hear 
your statement.

          STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR-

               DESIGNATE, TRANSPORTATION SECURITY

       ADMINISTRATION, AND ASSISTANT SECRETARY-DESIGNATE,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pistole. Well, thank you, Chairman Rockefeller and 
Ranking Member Hutchison.
    And I would like to take that privilege of introducing my 
wife of nearly 31 years, Kathy Harp, and our daughters, Lauren 
and Jennifer, who are here with me today. So, thank you for 
that. And I thank them for their unwavering love and support, 
because without them it's a very difficult job to do. So, thank 
you for being here.
    And to the Committee, I appreciate the opportunity to be 
here today. And I appreciate your very kind opening comments, 
Chairman and Ranking Member, and to be here as the President's 
nominee, as the Assistant Secretary for TSA. I'm honored by the 
President's call to service and by Secretary Napolitano's 
support.
    And I--in addition to expressing appreciation to this 
committee for what you've been through and are doing now for 
this important position, I'd also like to express my personal 
appreciation to those in Federal, state, local, tribal law 
enforcement, and in the U.S. intelligence community that I've 
had the privilege of working with these nearly 27 years.
    And I'd also be remiss if I didn't acknowledge our 
international partners, with whom I've had the privilege of 
work, because it's--without their help we would be unable to 
fully address the worldwide terrorist threats which may impact 
the homeland.
    We know that--I--national security and counterterrorism are 
familiar territory for me. And during my career with the FBI, I 
think it's--has provided me the skills and experience necessary 
to lead TSA and address the challenges of keeping the Nation's 
transportation system secure.
    For example, in 1992, when I worked with Italian 
authorities investigating the assassination, by the Sicilian 
Mafia, of the two top anti-Mafia judges and a number of body 
guards killed by what could be described as a surface 
transportation bomb, and then later a vehicle-borne IED, a 
VBIED, respectively, in two different assassinations.
    In 1999, as you mentioned, I helped lead the investigation 
recovery efforts of Egypt Air 990, off the coast of New 
England, which killed over 230 people.
    And after the tragic events of 9/11, I was put in charge of 
helping transform the mission and focus of the FBI's new and 
greatly expanded counterterrorism efforts.
    In May 2003, I led an FBI team to Riyadh, Saudi Arabia, 
investigating the al Qaeda-affiliated vehicle-borne bombings 
targeting three Western housing compounds which killed 40 
people, including eight Americans.
    And, as you noted, for the last five and a half years, I 
have served as a deputy director of the FBI, overseeing all the 
FBI efforts to protect the Homeland.
    These experiences, and the years I spent as a street agent 
in Minneapolis and New York, particularly on a joint FBI-NYPD--
joint organized crime task force, and then as a field 
supervisor in Indianapolis, assistant special agent in charge 
in Boston, inspector, as you noted, and then as an instructor 
at the international law enforcement academy, in Budapest--all 
of these taught me the critically important lesson on 
developing key partnerships, all designed to protect our 
citizens from those who would cause us harm.
    Now, we know, since the creation of--after 9/11, TSA has 
played a vital role in securing our Nation's transportation 
systems. Like the FBI, TSA relies upon a dedicated workforce, 
including over 47,000 TSOs at airports and throughout the 
Nation. They are TSA's field officers, the front line in a 
layered network protecting our aviation domain from 
adversaries.
    I will dedicate myself to supporting TSA's workforce, if 
confirmed, in ensuring the highest standards of 
professionalism. And I--also, if confirmed, I will assess TSA's 
non-aviation surface transportation efforts, in concert with 
state and local authorities.
    Additionally, I will work in close collaboration with all 
stakeholders, including other Federal agencies, state, local, 
tribal governments, private industry, our international 
partners, and, of course, the traveling public.
    In closing, I look forward to advancing TSA's critical 
mission. And so, Mr. Chairman and Ranking Member Hutchison, I 
thank you for the opportunity to appear before you today--
distinguished members of the Committee--and welcome your 
questions, and, if confirmed, look forward to working with you 
and members of the Committee.
    Thank you, sir.
    [The prepared statement and biographical information of Mr. 
Pistole follows:]

    Prepared Statement of John S. Pistole, Administrator-Designate, 
    Transportation Security Administration, and Assistant Secretary-
            Designate, U.S. Department of Homeland Security

    Good Morning, Chairman Rockefeller, Ranking Member Hutchison, and 
distinguished members of the Committee. I am deeply privileged to 
appear before you today as the President's nominee as Assistant 
Secretary of the Department of Homeland Security (DHS) for the 
Transportation Security Administration (TSA). I am honored by the 
President's call to service and by the support of Secretary Napolitano.
    With your kind indulgence, I would like to recognize my wife of 
nearly 31 years, Kathy, and our daughters, Lauren and Jennifer, who are 
with me today, and thank them for their unwavering love and support. I 
would also like to express my appreciation to those in Federal, state, 
local and tribal law enforcement communities and the U.S. Intelligence 
Community, with whom I've had the privilege to work since becoming a 
Special Agent of the FBI in 1983. And to the men and women of TSA, I 
would like to say that I am eager to join your ranks and to work with 
you in safeguarding our Nation's transportation system.
    National security and counterterrorism are familiar territory for 
me, and my 26-year career with the FBI has provided me with the skills 
and experience necessary to lead TSA and meet the Administration's 
objective of keeping the Nation's transportation systems secure. In 
1999, while an Assistant Special Agent in Charge (ASAC), in Boston, I 
participated in the investigation and recovery efforts involving Egypt 
Air Flight 990 after it crashed off the coast of New England. After the 
tragic events of September 11, 2001, I was put in charge of helping 
transform the mission and focus of the FBI's new and greatly expanded 
counterterrorism program, culminating in my appointment as the 
Executive Assistant Director for Counterterrorism and 
Counterintelligence. In 2003, I led an FBI team to Riyadh, Saudi 
Arabia, investigating the bombings of three housing compounds in which 
40 people died, including eight Americans.
    In my current position as Deputy Director, I was involved in the 
investigation of the December 25, 2009, attempted attack on Northwest 
Flight 253 in addition to overseeing the investigative efforts leading 
to the apprehension of Najibullah Zazi in connection with a plot 
against New York City subways. Additionally, I was involved in the 
investigation of Faisal Shahzad related to the attempted car bombing 
last month in Times Square. In these and all other efforts during my 
career with the FBI, I have worked steadfastly to expand and improve 
efforts to ensure the security of the homeland.
    Since its creation after 9/11, TSA has played a vital role in 
securing our Nation's transportation systems. I look forward to 
advancing TSA's critical mission in close collaboration with all of our 
partners, including other Federal agencies, state, local and tribal 
governments, private industry, our international partners, and, most 
importantly, the traveling public.
    Today, we face threats from other terrorist cells around the world, 
and from homegrown terrorists who are not affiliated with a particular 
network, but who, nonetheless are inspired by the message of hatred and 
violence. Nearly 9 years ago, as I helped restructure the FBI to deal 
with the terrorist threat in the wake of 9/11, it was evident that our 
success depended upon a multi-pronged approach that combined a variety 
of disciplines, including risk assessment, intelligence, and security 
initiatives, as well as law enforcement. In the transportation domain, 
TSA also employs a layered approach to security, including its 
Transportation Security Officers and advanced screening technologies at 
airport checkpoints, Federal Air Marshals patrolling domestic and 
international flights, canine patrols in both aviation and transit rail 
domains, and participation in Joint Terrorism Task Forces (JTTFs), to 
name just a few. If confirmed, I will use the lessons I learned in 
restructuring our counterterrorism efforts within the FBI to further 
enhance TSA's counterterrorism efforts across all modes of 
transportation to keep the traveling public safe.
    The years I spent as a Special Agent in the Minneapolis and New 
York Divisions, as a field supervisor of a White Collar Crime (WCC) and 
Civil Rights Squad in Indianapolis, as Assistant SAC in Boston 
overseeing WCC and Computer Intrusion programs, and as an instructor of 
Organized Crime matters at the International Law Enforcement Academy 
taught me the valuable contribution of the men and women who work on 
the front line in protecting our homeland.
    Like the FBI, TSA relies upon a dedicated workforce including about 
47,000 TSOs at airports throughout the Nation. They are TSA's field 
officers, the front line in protecting our aviation domain from our 
adversaries. I believe in mentoring, both in the field and in the 
classroom, and I will pursue it as one of my priorities. If confirmed, 
I will dedicate myself to supporting TSA's workforce that continues to 
meet the highest standards of professionalism through comprehensive 
training, respect, and opportunity for advancement.
    My familiarity with and respect for field operations is combined 
with years in senior management. Following my detail to help lead the 
Information Security Working Group (ISWG) on security and vulnerability 
issues, I was appointed by Director Mueller following the tragic events 
of 9/11 as Deputy Assistant Director for Operations of the 
Counterterrorism Division, then as Assistant Director, and afterwards 
as Executive Assistant Director for Counterterrorism and 
Counterintelligence before being promoted Deputy Director in October 
2004. I understand complex organizations and am dedicated to leading 
TSA to the next level.
    As part of the U.S. Intelligence Community, I understand the 
importance of information sharing and I am committed to building upon 
the Administration's efforts to counter terrorism. Moreover, based upon 
my counterterrorism and international experience at the FBI, I 
understand that our Nation's defenses must begin beyond our borders 
through strong international partnerships. Our aviation security also 
depends upon the commitment of our foreign partners to enhance aviation 
security measures. I look forward to building upon the progress made by 
Secretary Napolitano and Deputy Secretary Lute in their aggressive 
global outreach initiative to enhance international aviation security, 
particularly for international flights bound for the United States. If 
confirmed, I will build upon these efforts to make the international 
aviation system safer and ensure the security of our homeland.
    If confirmed, I look forward to partnering with this committee in 
deploying enhanced screening technologies, both at domestic airports 
and by our international partners. Advanced technologies are critical 
to detect evolving threats such as explosives. At the same time, TSA 
must remain respectful of personal privacy, dignity and civil rights 
and liberties, areas that are priorities for me.
    Finally, throughout my years of service as a law enforcement 
official, I have remained forever mindful of the need to identify those 
who wish to do us harm and also protect individual civil rights and 
liberties. We should be judged not only by our ability to defend our 
Nation from terrorism, but also by our commitment to defend the rights 
and freedoms we all enjoy. If confirmed, safeguarding the civil 
liberties and privacy interests of all Americans will remain a top 
priority.
    If confirmed, I would like a close working relationship with 
Congress and with this committee. I would be honored to serve with the 
outstanding men and women of TSA as their Assistant Secretary, and I 
applaud the work they perform each and every day, along with the 
outstanding work performed by Gale Rossides in her role of Acting 
Administrator.
    In closing, I again thank President Obama and Secretary Napolitano 
for their confidence and faith in my ability to lead TSA. Mr. Chairman, 
Ranking Member Hutchison, I thank you for the opportunity to appear 
before you today and I look forward to answering your questions.
                                 ______
                                 

                      A. BIOGRAPHICAL INFORMATION

    1. Name (Include any former names or nicknames used): John S. 
Pistole.
    2. Position to which nominated: Assistant Secretary of Homeland 
Security, Transportation Security Administration.
    3. Date of Nomination: May 17, 2010.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Federal Bureau of Investigation, 935 Pennsylvania Ave., 
        NW, Washington, DC 20535.

    5. Date and Place of Birth: June 1, 1956; Baltimore, MD.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Kathleen M. Harp, homemaker; children: Lauren E.H. Pistole, age 
        20, Jennifer A.H. Pistole, age 17.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Anderson University, B.A. cum laude, 1978.
        Indiana University School of Law--Indianapolis, J.D., 1981.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1981-1983: Attorney, Teague, Cole, Hamer & Pistole, P.C., 
        Anderson, IN.

        1983 to present: Federal Bureau of Investigation.

        Sept. 1983-Jan. 1984, FBI Academy, Quantico, VA.

        Jan. 1984-Mar. 1986, Special Agent, Minneapolis Field Office.

        Apr. 1986-Nov. 1990, Special Agent, New York City Field Office.

        Nov. 1990-Mar. 1994, Supervisor, FBI Headquarters, Washington, 
        DC.

        Mar. 1994-July 1999, Supervisor, Indianapolis Field Office.

        July 1999-July 2001, Assistant Special Agent in Charge, Boston 
        Field Office.

        July 2001-May 2002, Inspector, Inspections Division, FBI 
        Headquarters, Washington, DC.

        May 2002-Sep. 2003, Deputy Assistant Director for Operations, 
        Counterterrorism Division, FBI Headquarters, Washington, DC.

        Sep. 2003-Dec. 2003, Assistant Director for Operations, 
        Counterterrorism Division, FBI Headquarters, Washington, DC.

        Dec. 2003-Oct. 2004, Executive Assistant Director for 
        Counterterrorism and Counterintelligence, FBI Headquarters, 
        Washington, DC.

        Oct. 2004 to present, Deputy Director, FBI Headquarters, 
        Washington, DC.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years: None.
    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        International Association of Chiefs of Police (IACP), 2002 to 
        present; Executive Committee member since 2004. (service in 
        official FBI capacity).

        International Security Management Association (ISMA), 2005 to 
        present, Government Affairs member. (service in official FBI 
        capacity).

        Centreville United Methodist Church, member since 2002.

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Presidential Rank Award for Distinguished Executive, 2005.

        Honorary Doctor of Law degree, and Commencement speaker for 
        Anderson University, 2006.

        Edward H. Levi Award for Outstanding Professionalism and 
        Exemplary Integrity (DOJ), 2007.

        Outstanding Alumni award and Commencement speaker at Indiana 
        University School of Law, Indianapolis, 2009.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Published Articles:

        ``Safeguards are in Place,'' USA Today (Nov. 9, 2005) (with 
        Rachel Brand).

        ``Tools Against Spies and Terrorists,'' Washington Post (Nov. 
        12, 2005) (with Rachel Brand).

        ``An FBI That Changes with the Times,'' letter to the editor, 
        Washington Post (July 8, 2005).

        Also, see attached list of speeches.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    See attached list of testimony before Congressional committees.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Since 9/11, I have played a key role in the FBI's mission of 
preventing terrorist attacks in the U.S. I am part of and intimately 
familiar with the U.S. Intelligence Community, along with Federal, 
state, local and tribal law enforcement, all of which are key drivers 
for carrying out this mission. I have helped lead the transformation of 
the FBI into a threat-based, intelligence-driven organization.
    It would be an honor and privilege to apply my more than 26 years 
of FBI experience, including the last 5 years as Deputy Director, the 
senior career position in the FBI, to the challenges of leading TSA, 
the agency charged with protecting the Nation's transportation systems 
to ensure freedom of movement for people and commerce.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Having served the last 9 years in the Senior Executive Service 
(SES) for the FBI, I recognize the importance of ensuring proper 
management and accounting controls are in place and adhered to 
rigorously. I have worked with the DOJ Office of Inspector General on a 
number of issues relevant to this topic, particularly in the last 5 
years as Deputy Director. I have also worked with GAO on similar 
issues, and was instrumental in establishing an ``Office of Integrity 
and Compliance'' at the FBI to identify potential issues posing a risk 
to the FBI's mission, before they became an issue.
    As Deputy Director, I have extensive leadership and management 
experience helping lead a 34,000 employee agency with nearly a $8 
billion budget. I serve as the rating official for all 56 Special 
Agents in Charge (SACS), along with 12 key executives at FBIHQ. I chair 
the bi-monthly SES Board, which reviews SES positions and makes 
recommendations to the Director for selection. I have represented the 
FBI domestically and internationally, briefing the President, 
testifying before Congress, participating in National Security 
Committee (NSC) Deputies Committee meetings, and Office of the Director 
of National Intelligence (ODNI) Executive Committee (EXCOM) and 
Counterterrorism (CT) Resources meetings chaired by the DNI.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. To protect the national security of the U.S. and traveling 
        public by utilizing all available intelligence regarding 
        threats and prioritizing resource allocations to these threats.

        2. To ensure all personnel at TSA have a personal investment in 
        the mission of the agency.

        3. To ensure there is robust short-term and long-term strategic 
        planning identifying potential threats coupled with internal 
        controls to maximize the efficiency of security services TSA 
        provides to its customers.

                   B. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Upon retirement from the FBI, I will begin drawing my government 
pension. No other issues.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Homeland 
Security's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Homeland 
Security's designated agency ethics official to identify potential 
conflicts of interest. Any potential conflicts of interest will be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    None, except in my Federal Government capacity.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. That said, I am not aware of any potential 
conflicts of interest.

                            C. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    In June 2009, while traveling on vacation, a loose bullet was found 
in my briefcase during security screening in the Frankfurt airport. I 
had inadvertently left the bullet in my briefcase, and I had been 
unaware it was there. When I returned to the United States, I reported 
the incident to the FBI. I was reminded of the applicable rules, but 
received no formal reprimand or censure.
    From 2007-2010, the Department of Justice Office of the Inspector 
General (OIG) published three reports examining the FBI's use of 
National Security Letters and ``exigent letters.'' The reports 
criticized the FBI's past practices, but also noted that the FBI had 
taken appropriate remedial actions beginning in 2007. OIG subsequently 
communicated to FBI's Office of Professional Responsibility that it 
found no misconduct on my part, and that every level of the FBI bears 
some responsibility for the problems cited.
    During my tenure as a senior official at the FBI, DOJ OIG has 
issued reports relating to the FBI's operations. None of these reports 
were the result of complaints filed against me, and I have not been 
disciplined or reprimanded in any of the matters. These reports are 
available at http://wwwjustice.gov/oig/reports/FBI/index.htm.
    In addition, please see the EEO matters discussed in my response to 
Question 3, below.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As Deputy Director of the FBI, I chair the Personnel Board and 
serve as the rating official for much of the FBI's Senior Executive 
Service. As a result, I have been responsible for making hundreds of 
personnel decisions. In a few instances, described below, employees 
have filed EEO complaints related to these personnel decisions or 
related personnel actions. In one case, also below, an employee named 
me in a lawsuit related to a personnel decision.

  <bullet> In 2009, an employee who received a negative performance 
        inspection brought an EEO complaint alleging gender 
        discrimination. Although I had decided against reassigning the 
        employee based on the inspection, the employee alleged that the 
        inspection and related processes were conducted improperly. 
        This matter is in discovery before the EEOC.

  <bullet> In 2007, an employee who had unsuccessfully sought a 
        specific position within the FBI brought an EEO complaint 
        alleging gender discrimination. The FBI General Counsel's 
        office settled the case in June 2008.

  <bullet> In 2008, an employee brought an EEO complaint alleging 
        gender discrimination. The employee claimed to have been passed 
        over for promotion and subject to disparate treatment and 
        harassment by officials conducting a performance review. The 
        employee also alleged that I had stated that the employee 
        should consider retiring to avoid being removed from the 
        employee's position. I did not make such a statement; in fact, 
        I had determined that reassignment of a particular case from 
        the employee was a sufficient remedy, and decided against 
        reassigning the employee. The matter is in discovery before the 
        EEOC.

  <bullet> In 2008, an FBI employee who did not receive a performance 
        bonus brought an EEO complaint alleging gender and race 
        discrimination. Performance bonuses are recommended by the 
        Executive Assistant Directors and Associate Deputy Director 
        based on employee ratings. This employee was not rated highly 
        enough to receive a bonus. The matter is pending before DOJ's 
        Complaint Adjudication Office.

  <bullet> In 2009, a former FBI employee brought an EEO complaint 
        alleging gender and race discrimination. An inspection had 
        revealed multiple performance issues and potential criminal 
        violations on the part of the employee, and the employee had 
        retired rather than face transfer. The matter is pending before 
        DOJ's Complaint Adjudication Office.

  <bullet> In 2006, an FBI employee brought an EEO complaint alleging 
        discrimination based on reprisal when the Special Agent Middle 
        Management Selection System (SAMMS) Board denied the employee's 
        request to participate in the Inspector-in-Place program. I 
        concurred with the Board's decision. The FBI's Complaint 
        Adjudication Board found no discrimination based on reprisal, 
        and the employee did not appeal the ruling.

  <bullet> In 2008, a former FBI employee named me as a codefendant in 
        a suit alleging civil rights violations and discrimination 
        related to being reassigned. The plaintiff had been transferred 
        after an OIG investigation found that the plaintiff had 
        retaliated against a subordinate for being a whistleblower, and 
        a subsequent inspection revealed additional performance issues. 
        As Deputy Director, I made the decision to reassign the 
        employee. FBI's Office of Professional Responsibility 
        subsequently recommended dismissal, but the employee retired. 
        The FBI has filed a motion to dismiss the case, Tabman v. FBI, 
        which is pending in D.C. District Court.

    In addition, I recently became aware that during my service at the 
FBI, I have been named in two additional lawsuits:

  <bullet> Khan v. Chertoff was a mandamus complaint alleging delays in 
        the processing of immigration applications. I was named as a 
        codefendant in my official capacity, along with Michael 
        Chertoff, Jonathan Scharfen, and Alberto Gonzalez. The case was 
        dismissed on March 20, 2008. To the best of my knowledge, I had 
        no personal involvement in this matter.

  <bullet> In 2006, in Godinez v. Pistole, a prisoner brought a pro se 
        suit alleging civil rights violations. The case was dismissed 
        on December 21, 2006. To the best of my knowledge, I was never 
        served in this case.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    Please see the EEO complaints described above in response to 
Question 3.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.

                     D. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    I will do everything within my power to ensure deadlines are met.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              Attachments

                  BIOGRAPHY/RESUME OF JOHN S. PISTOLE

    John S. Pistole began his career as a Special Agent with the FBI in 
1983. He served in the Minneapolis and New York Divisions before being 
promoted to a Supervisor in the Organized Crime (OC) Section at FBIHQ. 
He assisted the Italian National Police in their investigations into 
the 1992 assassinations of two prominent Magistrates. He also served as 
an Instructor in OC matters at the FBI Academy for nearly 30 New Agents 
Classes.
    Mr. Pistole later served as a field supervisor of a White-Collar 
Crime (WCC) and Civil Rights Squad in Indianapolis, Indiana, where he 
created a Health Care Fraud Task Force and a Public Corruption Task 
Force. During this time, he also developed curricula and provided 
instruction at the first two sessions of the newly opened International 
Law Enforcement Academy in Budapest, Hungary.
    Mr. Pistole next served as Assistant Special Agent in Charge, 
Boston, Massachusetts, where he had oversight for WCC, Computer 
Intrusion Programs, and all FBI matters in the States of Maine and New 
Hampshire and WCC, especially Public Corruption, in Rhode Island. In 
1999, he helped lead the investigative and recovery efforts for the 
Egypt Air Flight 990 crash off the coast of Rhode Island. Following the 
espionage arrest of Robert Hanssen, he was detailed to FBIHQ and helped 
lead the Information Security Working Group, addressing security and 
vulnerability issues. He was then named an Inspector in the Inspection 
Division in Washington, D.C., where he led teams conducting evaluations 
and audits of FBI field offices and Headquarters divisions.
    Following the events of 9/11, Director Mueller appointed Mr. 
Pistole to the Counterterrorism Division, first as Deputy Assistant 
Director for Operations, then as Assistant Director. Mr. Pistole was 
then appointed as the Executive Assistant Director for Counterterrorism 
and Counterintelligence. In October, 2004, Mr. Pistole was promoted to 
Deputy Director, the number two position in the FBI. He is a recipient 
of the 2005 Presidential Rank Award for Distinguished Executive. In 
2007, Mr. Pistole received the Department of Justice Edward H. Levy 
Award for Outstanding Professionalism and Exemplary Integrity.
    Mr. Pistole practiced law for 2 years prior to joining the FBI. He 
is a graduate of Anderson University, where he was the 2006 
Commencement speaker and received an honorary Doctor of Laws; and the 
Indiana University School of Law--Indianapolis, where he was the 2009 
Commencement speaker and the recipient of the Outstanding Alumni Award. 
He is married and has two daughters.
                                 ______
                                 
         List of Speeches and Remarks Given by John S. Pistole

------------------------------------------------------------------------
                    Address and Location                         Date
------------------------------------------------------------------------
Norwood Policy Academy's 12th Municipal Police Officers        7/22/2000
 Graduation
Quincy, MA
Speech to Graduates

New Agents Graduation                                           09/10/04
Quantico, Virginia
Adaptability, Partnerships, and Leadership

Society of Former Special Agents                                09/15/04
San Francisco, CA
Islamic Militants among Us: How Real Is the Threat?

Welcoming DCI Porter Goss                                       10/04/04
FBI Headquarters, Washington, D.C.
Welcome to DCI GOSS/FBI--CIA Cooperation

Hispanic Heritage Month Celebration                             10/05/04
FBI Headquarters, Washington, D.C.
Hispanic Americans and the FBI

National Disability Awareness Month                             10/06/04
FBI Headquarters, Washington, D.C.
Success Knows No Limitations

AG Ashcroft Farewell Ceremony                                   01/26/05
FBI Headquarters, Washington, D.C.
A Tribute to AG Ashcroft

Center for Strategic and International Studies                  02/15/05
Washington, D.C.
Transnational Threats and Information Sharing

New Agents Graduation                                           04/12/05
Quantico, Virginia
Adaptability, Partnerships, and Leadership

National Executive Institute                                    04/21/05
Quantico, VA
Leading Today's FBI

National Academy Graduation                                     06/10/05
Quantico, VA
Global Law Enforcement Cooperation

FBI Honorary Medals Ceremony                                    07/13/05
Liberty Crossing, McLean, VA
Honoring the FBI'S Heroes

DOD Worldwide Combating Terrorism Conference                    09/14/05
Arlington, VA
Working Together to Fight Terrorism

New Agents Graduation                                           09/15/05
Quantico, Virginia
Adaptability, Partnerships, and Leadership

ANSIR Conference                                                09/19/05
Indianapolis, IN
Counterintelligence, National Security, and the FBI

Harvard University MBA Student Presentation                     10/04/05
Cambridge, MA
Managing Change and Leading Transformation at the FBI

George C. Marshall European Center for Security Studies         10/17/05
Garmisch-Partenkirchen, Germany
The FBI, Global Partnerships, and the War on Terror

Association of Former Intelligence Officers                     10/28/05
FBI Headquarters, Washington, D.C.
Intelligence at the FBI

Vance Overseas Security Advisory Council Annual Briefing        11/08/05
 Dinner
Washington, D.C.
The FBI: Combating Today's Threats

New Agents Graduation--05-14                                    01/24/06
Quantico, VA
Adaptability, Partnerships, and Leadership

Tokyo Press Roundtable                                          03/07/06
Tokyo, Japan
International Cooperation to Combat Crime

National Legal Center for the Public Interest--Day With         03/22/06
 Justice
Great Hall, RFK Main Justice Building, Washington, D.C.
Today's FBI

Anderson University Commencement                                05/06/06
Anderson, IN
Stepping out in Faith

New Agents Graduation--06-06                                    05/10/06
Quantico, VA
Adaptability, Partnerships, and Leadership

Special Agent Memorial Ceremony                                 05/17/06
FBI Headquarters, Washington, D.C.
Honoring the FBI's Fallen Special Agents

Memorial Day Wreath Laying                                      05/26/06
FBI Headquarters, Washington, D.C.
A Tribute to America's Veterans

New Agents Graduation--06-08                                    06/07/06
Quantico, VA
Adaptability, Partnerships, and Leadership

Operation Holiday Crush Press Conference                        06/23/06
RFK Main Justice Building, Washington, D.C.
Announcing Indictments in Miami Seven Terrorism Case

International Association of Police Chaplains--Luncheon         07/10/06
 Keynote
Indianapolis, IN
Today's FBI, Today's Challenges

International Association of Police Chaplains--Opening          07/10/06
 Ceremony
Indianapolis, IN
FBI Chaplain Program

New Agents Graduation--06-10                                    07/19/06
Quantico, VA
Adaptability, Partnerships, and Leadership

New Agents Graduation--06-11                                    08/16/06
Quantico, VA
Adaptability, Partnerships, and Leadership

New Agents Graduation--06-12                                    08/30/06
Quantico, VA
Adaptability, Partnerships, and Leadership

Commonwealth Club of San Francisco                              09/11/06
San Francisco, CA
September 11, 2006: The FBI in a Post-9/11 World

Attorney General Awards                                         09/12/06
RFK Main Justice Building
Honoring DOJ Leaders

New Agents Graduation--06-13                                    09/14/06
Quantico, VA
Adaptability, Partnerships, and Leadership

Society of Former FBI Special Agents                            09/21/06
New York City, NY
The Legacy of Former Agents

International Symposium on Agroterrorism                        09/25/06
Kansas City, MO
Working Together to Protect America's Agriculture

Chesapeake II Conference Toast                                  10/12/06
Chantilly, VA
Partnership Toast

New Agents Graduation--06-16                                    10/26/06
Quantico, VA
Adaptability, Partnerships, and Leadership

World Economic Forum                                            11/27/06
New Delhi, India
The Global FBI

Media Availability                                              11/28/06
Kiev, Ukraine
Global Law Enforcement Cooperation

Prefetto Giovanni De Gennaro Award Ceremony                     12/08/06
FBI Headquarters, Washington, DC
Honoring Giovanni De Gennaro

Holiday Reception                                               12/15/06
FBI Headquarters, Washington, DC
Happy Holidays
------------------------------------------------------------------------
                                  2007
------------------------------------------------------------------------
University of Pennsylvania, Department of Criminology            1/26/07
Philadelphia, PA
FBI Transformation-info Sharing and Partnership

Major County Sheriffs Association                               01/31/07
Washington, D.C.
Working Together to Protect America from Crime

Council on Christian Colleges and Universities                  02/02/07
Washington, D.C.
Christian Education and Public Service

National Fusion Center Conference                               03/07/07
Destin, FL
The Force of Fusion: Working Together to Protect America

Indianapolis School of Law Distinguished Speaker Series         03/20/07
Indianapolis, IN
Today's FBI: Fact Vs. Fiction

New Agents Graduation                                           03/26/07
Quantico, VA
Adaptability, Partnerships, and Leadership

Hazardous Devices School Memorial                               04/16/07
Huntsville, Alabama
A Tribute to Bomb Technicians

ChoicePoint Users Conference                                    05/08/07
Arlington, VA
Intelligence, Information-sharing, and Partnerships

Special Agents Memorial Service                                 05/16/07
FBI Headquarters, Washington, DC
Honoring the FBI's Fallen Special Agents

Society of Former Special Agents                                05/22/07
South Lake Tahoe, CA
Honoring the FBI's Heroes

Memorial Day Wreath Laying Ceremony                              5/24/07
FBI Headquarters, Washington, D.C.

Pearls in Policing                                              06/11/07
The Hague, Netherlands
Radicalization and Homegrown Terrorism

SOCA Meeting                                                    06/26/07
London, England
Counterterrorism, Information Sharing, Legats

SOCA Podcast                                                    06/26/07
London Embassy, London, England
The FBI and the United Kingdom--Working Together to Protect
 Our Nations

Corporate Fraud Task Force Anniversary                          07/17/07
Washington, D.C.
Combating Corporate Corruption

Hispanic Heritage Month                                         10/10/07
FBI Headquarters, Washington, DC
Celebrating Diversity in the FBI

Ethics and Intelligence Seminar                                 10/19/07
Queenstown, MD
Ethics and Integrity in the Intelligence Community

American Bankers Association/ABA Money Laundering               10/22/07
 Conference
Washington, D.C.
The FBI and the Private Sector: Investigating Terrorism
 Financing

Legat Conference                                                10/24/07
FBI Headquarters, Washington, DC
Introductions of DNI Mcconnell, Secretary Chertoff, and CIA
 Director Hayden

Wreath Laying Ceremony                                          11/05/07
Nairobi, Kenya
Honoring the Victims of the 1998 East African Embassy
 Bombings

100 Club of Indianapolis                                        11/20/07
Indianapolis, IN
Evolution of the FBI

Native American/Alaskan/Pacific Islander Heritage Month         11/28/07
 Celebration
FBI Headquarters, Washington, DC
Celebrating Diversity in the FBI

New Agents Graduation (07-06)                                   12/07/07
Quantico, VA
Adaptability, Partnerships, and Leadership

National Academy Graduation (Session 231)                       12/14/07
Quantico, VA
Global Law Enforcement Cooperation
------------------------------------------------------------------------
                                  2008
------------------------------------------------------------------------
Coastal Crisis Chaplaincy Banquet                               01/24/08
Charleston, SC
The Power of the Chaplaincy

Field Office Building Dedication                                02/19/08
San Antonio, TX
A Modern Building for a Modern FBI

Anti-Defamation League Distinguished Service Award Ceremony     02/24/08
Albuquerque, NM
Balancing Counterterrorism and Civil Rights

2nd IACP Summit on Transnational Gangs                          03/03/08
Los Angeles, CA
Working with Global Partners to Combat Transnational Gangs

New Agents Graduation (08-01)                                   03/05/08
Quantico, VA
Adaptability, Partnerships, and Leadership

Kellogg Case Study Program with Int'l Security Management       03/31/08
 Association
Chicago, IL
FBI Update, Private Sector Partnerships, Current Threats

Domestic Security Executive Academy                             04/10/08
Quantico, VA
FBI Update, Private Sector Partnerships, Current Threats

Police Officer Memorial Prayer Breakfast                        04/25/08
St. Louis, MO
Police Week, Law Enforcement Line of Duty Deaths,
 Leadership

Special Agent Memorial Service                                  05/13/08
FBIHQ
Police Week, Law Enforcement Line of Duty Deaths, Sacrifice

Remarks to Vice President of Colombia and other dignitaries     05/19/08
Bogota, Colombia
Partnerships and Current Threats

National Academy Latin American and Caribbean Retrainer         05/20/08
Santiago, Chile
Power of Partnerships, Case Successes, Global Threats

Ambassador's Reception                                          05/21/08
Buenos Aires, Argentina
Power of Partnerships, FBI's 100th Anniversary

AMIA Meeting and Press Statement                                05/21/08
Buenos Aires, Argentina
Power of Partnerships, Terrorism

Junior Special Agents                                           06/06/08
Washington, D.C.
Civic Duty, Education

International Security Management Association Conference        06/10/08
Boston, MA
Power of Partnerships, Private Sector

Community Relations Conference                                  06/18/08
Tampa, FL
Community Outreach, Power of Partnerships, FBI Today

Strategic Alliance Conference                                   06/23/08
Monterey, CA
Power of Partnerships, Global Threat

Defense Senior Leadership Conference                            07/15/08
Arlington, VA (Pentagon)
Combating Radicalization/terrorist Threat

FBI DAY (Emcee Script)                                          07/17/08
Washington, D.C.
Celebrating a Century of Service

Dedication of William H. Webster Conference Room                07/17/08
FBI Headquarters, Washington, D.C.
Honoring Judge William Webster

100th Anniversary International Reception                       07/17/08
FBI Headquarters, Washington, D.C.
Celebrating a Century of Partnerships

Commission on the Prevention of WMD Proliferation and           09/10/08
 Terrorism
Washington, D.C.
WMD Threat/FBI Response

Society of Former Special Agents                                09/17/08
Honolulu, HI
Update on the FBI's Current Focus

FBI New York 100th Anniversary Commemoration                    09/18/08
New Rochelle, NY
Celebrating a Century of Service

Information Technology Study Group                              10/22/08
Washington, D.C.
Electronic Surveillance and Information Technology

Unveiling of Society of Former Special Agents Medallion         12/19/08
FBI Headquarters, Washington, DC
A Tribute to Former Special Agents of the FBI

New Agents Graduation (08-16)                                   12/23/08
Quantico, VA
Adaptability, Partnerships, and Leadership

Intelligence Basic Course Graduation (09-01)                    12/23/08
Quantico, VA
Intelligence in the FBI
------------------------------------------------------------------------
                                  2009
------------------------------------------------------------------------
National Security Higher Education Advisory Board               2/04/209
Washington, DC
Opening Remarks

New Agents Graduation (09-01)                                   03/11/09
Quantico, VA
Adaptability, Partnerships, and Leadership

National Executive Institute                                    03/19/09
Fredericksburg, VA
Today's FBI/Partnerships/importance of NEI

Indiana University School of Law--Commencement                  04/28/09
Indianapolis, IN
You Can Make a Difference

EDI Leadership Conference                                       05/09/09
Quantico, VA
Leading Change

Society of Former Special Agents Regional Meeting               05/19/09
Sun Valley, ID
State of the Bureau

Memorial Day Wreath Laying                                      05/20/09
FBI Headquarters, Washington, DC
A Tribute to Fallen Soldiers

Federal Law Enforcement Memorial Service                        05/21/09
Phoenix, AZ
Law Enforcement Line of Duty Deaths, Sacrifice

New Agents Graduation                                            5/28/09
Quantico, VA
Graduation Speech

ODNI Trade Association Meeting                                   5/29/09
Washington, DC
FBI Transformation-importance of Private Partnership and
 Domain Awareness

``Pearls in Policing'' Conference                               06/14/09
The Hague, Netherlands
FBI of Tomorrow

New Agents Graduation (09-07)                                   07/09/09
Quantico, VA
Adaptability, Partnerships, and Leadership

New Agents Graduation (09-10)                                   08/19/09
Quantico, VA
Adaptability, Partnerships, and Leadership

New Agents Graduation                                            9/02/09
Quantico, VA
Graduation of New Agents Class

Cook County Crime Stoppers Awards Ceremony                      09/10/09
Chicago, IL
Partnerships and Community Leadership

ISA Graduation, Ulpan Language School                           09/16/09
Tel Aviv, Israel
Partnership, Intelligence, and Information Sharing

Domestic Security Executive Academy                             09/21/09
Quantico, VA
Partnership, Intelligence, and Information Sharing

Ethics and Compliance Officers Association                      09/24/09
Chicago, IL
Ethics and Compliance in Law Enforcement

ATAC Federal Prosecutors Conference                             09/30/09
Washington, D.C.
National Security, Counterterrorism, Intelligence

Hispanic Heritage Month                                         10/08/09
FBIHQ
Celebrating Diversity in the FBI

AFCEA Symposium                                                 10/14/09
Chantilly, VA
Today's FBI and Intelligence

University of Indianapolis Lectureship                          10/15/09
Indianapolis, IN
Public Service and Civic Responsibility

OSAC Winter Meeting                                             11/18/09
Washington DC
The FBI: Combating Today's Threats

Baltimore Field Office Dedication in Honor of Sam Hicks         11/23/09
Baltimore, MD
Partnerships, Line of Duty Death

New Agents Graduation 09-15                                     11/24/09
Quantico, VA
Adaptability, Partnerships, and Leadership

George Marshall European Center for Security Studies            12/08/09
FBIHQ
Partnerships, Intelligence, FBI Priorities

New Agents Graduation 09-17                                     12/23/09
Quantico, VA
Adaptability, Partnerships, and Leadership
------------------------------------------------------------------------
                                  2010
------------------------------------------------------------------------
SOCA Luncheon                                                   02/04/10
Washington, D.C.
Organized Crime, Partnerships

FBI National Academy Associates Executive Board Conference      02/17/10
Quantico, VA
Partnerships, Intelligence, FBI Priorities

National Executive Institute Opening Banquet                    03/18/10
Crystal City, VA
Partnerships, Intelligence, Leadership

FBI National Academy Associates Africa/Middle Eastern           03/22/10
 Retrainer
Botswana
Partnerships, Intelligence, FBI Priorities

Financial Crimes Enforcement Network Distinguished Speaker      04/07/10
 Series
Alexandria, VA
Partnerships, Intelligence, FBI Priorities

North Texas Crime Commission                                    04/14/10
Dallas, TX
Partnerships, Intelligence, FBI Priorities
------------------------------------------------------------------------


                                Testimony
------------------------------------------------------------------------
      Date                 Committee                  Hearing Topic
------------------------------------------------------------------------
                              Open Session
------------------------------------------------------------------------
04/01/2009       HJC                            Proposals to Fight Fraud
                                                 and Protect Taxpayers
03/20/2009       House Committee on Financial   Federal and State
                  Services                       Enforcement of
                                                 Financial Consumer and
                                                 Investor Protection
                                                 Laws
02/11/2009       SJC                            The Need for Increased
                                                 Fraud Enforcement in
                                                 the Wake of the
                                                 Economic Downturn
03/28/2007       HPSCI                          FBI Use of National
                                                 Security Letters
01/25/2007       SSCI                           Implementation of
                                                 Intelligence Reform and
                                                 Terrorism Prevention
                                                 Act of 2004
08/23/2004       House Judiciary Subcommittee   Creating a National
                  on Crime, Terrorism and        Intelligence Director
                  Homeland Security
08/03/2004       Senate Governmental Affairs    FBI Reforms to Meet
                  Committee                      Current Threats
06/16/2004       National Commission on         The 9/11 Plot
                  Terrorist Attacks Upon the
                  United States
04/14/2004       National Commission on         Law Enforcement and the
                  Terrorist Attacks Upon the     Intelligence Community
                  United States
10/14/2003       Senate Judiciary Subcommittee  Terrorist Recruitment in
                  on Terrorism, Technology and   Prison and the Recent
                  Homeland Security              Arrests Related to
                                                 Guantanamo Detainees
10/01/2003       House Select Committee on      Fraudulent
                  Homeland Security              Identification
                                                 Documents and the
                                                 Implications for
                                                 Homeland Security
09/25/2003       Senate Committee on Banking,   Identifying, Tracking
                  Housing and Urban Affairs      and Dismantling the
                                                 Financial Structure of
                                                 Terrorist Organizations
09/24/2003       House Financial Services       The Terrorist Financing
                  Subcommittee on Oversight      Operations Section
                  and Investigations
09/09/2003       Senate Finance Committee       The Alias Among Us: The
                                                 Homeland Security and
                                                 Terrorism Threat from
                                                 Document Fraud,
                                                 Identity Theft and
                                                 Social Security Number
                                                 Misuse
07/31/2003       Senate Committee on            Terrorism Financing:
                  Governmental Affairs           Origination,
                                                 Organization and
                                                 Prevention
03/18/2003       Senate Committee on Foreign    Diplomacy and the War
                  Relations                      Against Terrorism
------------------------------------------------------------------------
                             Closed Session*
------------------------------------------------------------------------
01/28/2010       SSCI                           Fort Hood Update
01/27/2010       HPSCI                          Fort Hood Update
02/12/2008       SSCI                           Cyber Initiative
                                                 (Testimony pending)
09/20/2007       SSCI                           FISA and Protect America
                                                 Act
------------------------------------------------------------------------
* The transcripts for closed, classified hearings are maintained by the
  Committees and not made available to the FBI.


    The Chairman. Thank you, Mr. Pistole, very much.
    I'm going to open the questioning by asking you to try and 
give a thumbnail sketch of how you see the terrorism threat; 
and the use of airplanes; and therefore, the use of detection 
equipment, and how satisfactory is it. How do you see the 
terrorism threat coming from overseas? How do you see it from 
people who come from overseas to be embedded here? And how do 
you see it coming from Americans themselves, as anger grows, 
which, of course, it is? And then how does that mesh in to how 
you change and amplify the technology that people have to go 
through to be searched? Because that is an absolute obligation, 
and whole-body imaging is anathema to a lot of people. I don't 
know how you get around that. So, could you talk about how you 
see the sequencing of threats, the magnitude of the threats, 
where the threats are from, and how you adjust technology to 
try and counter that?
    Mr. Pistole. Thank you, Mr. Chairman. And that actually 
addresses my top priority, if confirmed, in going into TSA, to 
ensure that the men and women of TSA, and all those who deal 
with it, see it as a threat-based, intelligence-driven agency 
with a national security focus answering the question of, How 
do we manage risk?
    We know that al Qaeda and its affiliates, including TTP, 
for example, associated with Shahzad, on Times Square, and a 
number of other affiliated AQ--al Qaeda-related groups--have 
the intent to commit attacks in the homeland. The question is 
their capability.
    And so, what I've been doing in my current job, as Deputy 
Director, is trying to work with all the interagency partners 
to identify those threads of intelligence which may help inform 
our actions here in the homeland. And I think at TSA it becomes 
especially critical.
    For example, given the Christmas Day plot, and the 
concealment technique that was used in that plot, which has to 
be used to help inform the people on the front lines as to what 
type of detection is appropriate--is the best suited to detect 
those type of new concealment methods, knowing that there was a 
great deal of sophistication in that device.
    And so, what it comes back to is making sure that TSA has 
the latest intelligence, the latest training, the latest 
techniques, and the latest technology to work as part of that 
layer of defense.
    The best scenario is if we have the intelligence through 
part of the U.S. intelligence community to say, ``There are 
threats at this particular location,'' whether it's an airport, 
a port, a cargo ship. We know, obviously--from Madrid, in March 
of 2004; in London, in July of 2005--both July 7 and 21; from 
Moscow, 2 months ago, two female suicide bombers on the subway 
there; from Mumbai, in 2007; a number of other incidents in 
India--that terrorists are interested in soft targets.
    So, the more we harden our targets, the more we see 
opportunities that the terrorists are looking for to hit us, 
such as in Times Square. Somebody can--as you mentioned, the 
freedoms we have here in the country--somebody can drive in, 
park a car, walk away, and explode a device, causing maximum 
carnage. So, that's what we have to do, make sure we're threat-
based, intelligence-driven, allocating our resources to the 
risk.
    And I think that all factors into what is the technology 
that we're acquiring, how do we train our people, and how do 
they go about doing their jobs as part of that layered 
security.
    The Chairman. So, you're really making the security factor 
the main factor, in terms of the use of imaging and technology 
and what it is that people have to go through.
    Mr. Pistole. Absolutely.
    The Chairman. We started with shoes; that was because of 
the shoe-bomber.
    Mr. Pistole. Right.
    The Chairman. You know, when we have a--more than a 3-ounce 
tube of toothpaste, and we've got to pitch it, people don't 
like it. I don't know whether that's related to security, but 
it sure could be.
    Mr. Pistole. True.
    The Chairman. So, is that what rules in making decisions 
about imaging and equipment and what people have to go through?
    Mr. Pistole. Yes. I mean, security is paramount, Mr. 
Chairman. The whole purpose of the agency and all the U.S. 
Government efforts since 9/11 have been to enhance security; 
obviously, trying to balance civil liberty and privacy issues 
that are attendant to being citizens of the United States.
    In my current job, I've had a lot of opportunities to do 
that, in how we investigate U.S. citizens and those--others, to 
make sure that we're doing everything legally possible to 
prevent bad things from happening, while protecting the civil 
liberties and privacies of those who we don't have an 
investigative interest in. So----
    The Chairman. But, that leaves the Watch List. And the 
Watch List was violated recently.
    Mr. Pistole. Yes, the Watch List is an important tool in 
the overall toolbox, if you will, that the U.S. Government has. 
It is constantly being evaluated and modified to ensure that it 
is the best information possible to provide the best tools 
possible to those who would engage with the traveling public.
    So, for example, individuals who we describe as ``clean 
skins,'' those who have no terrorist affiliations, such as 
Abdulmutallab, with Christmas Day. It makes it a challenge. If 
that person's not on a Watch List, how do we screen for that, 
other than through these enhanced techniques?
    And so, the Watch List performs a valuable function in 
trying to identify, basically, as a tipper to say, ``OK. Here's 
somebody you should take a additional look at.'' It's not 
dispositive of anything. But, if somebody is on a Watch List, 
particularly the No Fly or Selectee, then obviously additional 
scrutiny should be, and is, applied to ensure that person does 
not pose a threat to aviation security, in that instance, or to 
other opportunities that person may have to do something bad in 
the U.S.
    The Chairman. Thank you, Mr. Pistole.
    Senator Hutchison.
    Senator Hutchison. Well, thank you, Mr. Chairman.
    First, I will just ask you the question, as the Ranking 
Member, if you and your agency will be available to all of the 
members of our committee, as well as our staffs on our behalf, 
for information that we need to be the oversight committee of 
the U.S. Senate.
    Mr. Pistole. Absolutely, Senator Hutchison. I look forward 
to that, if confirmed.
    Senator Hutchison. Thank you. Let's talk about collective 
bargaining.
    We have asked nominees, before, the question about what you 
think about it, how you would respond to it. But, I'm going to 
ask you a different question, because I know that the Secretary 
will make a final decision on this. But, my question to you is, 
What is going to be your advice to the Secretary? And what 
factors are you going to use to give her advice on whether this 
would hurt the capability to respond, to avoid any kind of work 
stoppages or slowdowns or any of the ways that people use to 
show that they aren't pleased if collective bargaining doesn't 
go their way?
    Mr. Pistole. Sure. Thank you, Senator.
    Secretary Napolitano did ask me to conduct a review of this 
issue, which I'll do, engaging all stakeholders in the process. 
In terms of any big issues or decisions like that, in my 
leadership experience at the FBI I tried to do just that. So, 
it's consistent with that perspective of trying to gather as 
much information as possible, and then making an informed 
judgment or recommendation. And so, I need more information to 
do that.
    My experience with the FBI is such that, of course, we 
don't have unions or collective bargaining. And so, I'm attuned 
to the security/safety issue. And, from my perspective, 
whatever the discussions are can't adversely affect the safety 
and security of the traveling public.
    Senator Hutchison. Every previous Administrator has 
determined that collective bargaining is not appropriate for 
this particular agency. Will you consult with former heads of 
the TSA in your deliberations about what you will recommend?
    Mr. Pistole. I would consider that, Senator. As people who 
are, I would think, part of the stakeholders in this process, 
given their experience and everything, obviously would be open 
to all those who have valuable insights in that regard.
    Senator Hutchison. Let me just ask you if the Secretary has 
indicated to you that she will take your advice or when she 
asked you to look into it, did she say that she would rely on 
you, or indicate that she might go a different way?
    Mr. Pistole. No. She gave no indication. She simply asked 
me to do the review. And, from my perspective, that is an 
independent assessment that I would do with--again, engaging 
all the stakeholders, but that will be my assessment, and we've 
had no discussions about the outcome of that.
    Senator Hutchison. Well, we certainly are going to, as I 
said earlier, want to have a progress report and be fully 
informed of----
    Mr. Pistole. Absolutely.
    Senator Hutchison.--of your decision. And be able to 
discuss it.
    Let me ask you about your thoughts on the other issues 
besides airline security. I think that many of the focuses in 
this agency have certainly been airline--and, as they should 
be.
    Mr. Pistole. Right.
    Senator Hutchison. That is a place where people are 
vulnerable, and we know that many tricks have been tried, and 
largely we have avoided having another 9/11. But, what other 
areas do you see as priorities and where you would need to put 
resources for safety?
    Mr. Pistole. Thank you, Senator. It--as I mentioned, given 
the interest in and successful attacks that we've seen in 
Europe and India, in particular, against rail networks; the 
attempted attack by Najibullah Zazi, last fall, against the New 
York City subways, a plot that was disrupted; the intelligence 
that's out there that indicates, again, targeting of more soft 
targets, means that the rail system with, you know, the 
millions--the multiple or more millions of passengers traveling 
by rail every day in subways than the 2 million air passengers 
that we have here in the U.S., makes that one of the key 
priorities.
    Ports are also a critical area that needs to be worked as 
part of the interagency. Obviously, Coast Guard has a large 
responsibility there with helping inform and then work with the 
other agencies to address the vulnerabilities that al Qaeda and 
other terrorist groups have indicated an interest in trying to 
do bad things to.
    So, those two part--obviously, HAZMAT carriers those--the 
over-the-road truckers who can carry hazardous loads, the 
freights, as I mentioned, heavy rail, light rail, subways, 
those are all areas that fall within that umbrella of 
transportation security. And so, if confirmed, I look forward 
to working with you and the Committee to assess those 
vulnerabilities and to figure out the best way to manage risk 
by allocating resources.
    Senator Hutchison. Well, thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    Mr. Pistole, the reason that some of us are making such an 
issue of collective bargaining, it's a signal to us. There's no 
doubt in my mind that you have the qualifications to make the 
Transportation Security Agency a better agency, to continue to 
improve it, that you know how to manage people and focus on 
security. But, if we see you yielding to political pressure, 
that would suggest to us that the priorities have changed. And 
that's why it's so important to us.
    I've got a letter from candidate Barack Obama to John Gage, 
of the National--or the American Federation of Government 
Employees, promising to provide collective bargaining benefits. 
And so, that's going to be a very difficult political pressure 
for you to stand down, but I think you probably have worked in 
difficult environments before.
    When we met a few weeks ago, you said you had never thought 
of having collective bargaining at the FBI. And you are one of 
the Nation's leading counterterrorism officers. I find it 
instructive that you didn't even think that the workforce at 
the FBI needed to unionize.
    Would it be accurate to say that implementing collective 
bargaining at FBI would not improve national security?
    Mr. Pistole. I'm sorry, Senator, if you could rephrase--or 
restate that? I apologize. In terms of the FBI----
    Senator DeMint. Would collective bargaining improve 
security--would it improve national security----
    Mr. Pistole. Oh. I----
    Senator DeMint.--at the FBI?
    Mr. Pistole. Thank you. No, Senator. Obviously--and, from 
the FBI's perspective, we have to have the ability to surge 
resources at any time, to be able to deploy people, not only 
nationwide, but worldwide, at a moment's notice. And so, the 
perspective is one--again, from my experiences, is one of not 
collective bargaining.
    Senator DeMint. Yes.
    Mr. Pistole. So, that's why I need to----
    Senator DeMint. But----
    Mr. Pistole.--go into it----
    Senator DeMint.--let me ask this, because obviously the 
people who work at the agency, the officers, are very important 
to us, and the way they're treated----
    Mr. Pistole. Sure.
    Senator DeMint.--is very important to us. And if you assume 
the reins at the TSA, can you commit to paying the TSO--the 
officers an honest wage, having the highest workplace 
standards, ensuring the professional development of your 
officers? And do you promise not to show favoritism or 
discriminate in the processes that evaluate performance and 
determine promotion, overtime, shift bids, or health and 
safety? Is--would that be your commitment?
    Mr. Pistole. Well, Senator, of course what I am very 
focused on is the workforce development issues. You've gone 
into a lot of detail there. What I pledge to do is make sure 
that the--all the TSOs and all employees of TSA that have a 
voice to--that they know can be heard by the head of the 
agency, and that they can engage and can discuss those issues, 
some of which you've outlined, in a meaningful fashion. So, 
yes, I pledge to----
    Senator DeMint. But, you don't think you necessarily need a 
third party to tell you to do that.
    Mr. Pistole. That's something I have to withhold judgment 
on, because I don't have the information yet. I need to conduct 
that review, talk to the stakeholders, and make an informed 
judgment.
    Senator DeMint. You don't have the information about what 
your commitment to the employees will be?
    Mr. Pistole. No. I know what my commitment to the employees 
would be, if confirmed. Thank you, Senator.
    Senator DeMint. When you do your assessment, will you make 
that assessment available to this committee?
    Mr. Pistole. I would need to talk with the Secretary 
initially, and then, in discussions with her, make that 
decision.
    Senator DeMint. So, you're not sure whether or not you'll 
give us your assessment.
    Mr. Pistole. I'm not sure. I need to talk to the Secretary 
about that.
    Senator DeMint. OK. All right. The unions are making the 
case that if we don't have collective bargaining, that someone 
in your position will not provide the proper workplace 
environment and fairness. I think your history shows that 
that's not true----
    Mr. Pistole. Right.
    Senator DeMint.--but that's certainly something you're 
capable of. So, again, I know we've made enough of this issue, 
but I will trust your judgment----
    Mr. Pistole. Thank you, Senator.
    Senator DeMint.--until proven otherwise.
    Thank you very much.
    Mr. Pistole. Thank you, Senator, appreciate it.
    Senator DeMint. I yield back, Mr. Chairman.
    The Chairman. Thank you, Senator DeMint.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Mr. Chairman.
    Thank you very much. It was great to see you, a couple days 
ago.
    I do have--I want to restate some of the questions we 
talked about, but I have to take--I wasn't planning to ask any 
questions on this, or even make a statement on it. But, on the 
whole collective bargaining issue, you know, I'm hopeful that--
you know, what I've learned here, in a year and a half, little 
issues like this suddenly become big issues because of 
philosophical differences, versus what is right and what needs 
to be done.
    Let me ask you, first, one basic question, then I'm going 
to give you a comment, here.
    First, the question is, In your position, you will--will 
you do everything possible to make sure that whatever rules, 
regulations, procedures--everything you do will ensure the 
safety of traveler as well as the highest quality of workers in 
TSA?
    Mr. Pistole. Yes.
    Senator Begich. That's the ultimate question. How you get 
there----
    Mr. Pistole. Yes.
    Senator Begich.--is--you know, this is the part of the role 
that I look to administration to work on. As a former Mayor, 
someone who had to administer well over 800 police and fire, 
who are unionized, I saw not one diminishment of public safety, 
because people who go into this field--and correct me if I'm 
wrong; you've been in the FBI for many years--they chose this 
field not because it's union or nonunion.
    Mr. Pistole. Right.
    Senator Begich. They choose this field because this is the 
area of interest to them, because they instinctively--you want 
to make this place a safer place. Is that a fair----
    Mr. Pistole. That's right.
    Senator Begich.--statement.
    Mr. Pistole. Sense of mission.
    Senator Begich. That's right. You don't sit there go, 
``Geez, is this union or nonunion?''
    Mr. Pistole. No.
    Senator Begich. So, I have to take some exception to both 
minority members, and that is, I will stack the police 
department that I had against any public safety team in this 
country. They were unionized, but they never forgot their 
number-one mission----
    Mr. Pistole. Right.
    Senator Begich.--which is the public safety of, in that 
case, our community there. Same thing you would see at TSA. Is 
that a fair----
    Mr. Pistole. Yes.
    Senator Begich.--statement? Under any circumstances, the 
goal is--you're going to make sure those folks understand their 
number-one mission----
    Mr. Pistole. That's----
    Senator Begich.--is traveling----
    Mr. Pistole. Yes, sir.
    Senator Begich. And so, I want to take a--some exception. I 
understand there are philosophical issues, but, again, people 
don't go into these jobs and say, ``Geez, you know, if the 
union doesn't do this, I'm not going to keep the public safe.'' 
Do you have that feeling, that they would do that?
    Mr. Pistole. I really don't have that sense, Senator. 
Obviously, coming from my, you know, 27 years----
    Senator Begich. Right.
    Mr. Pistole.--at FBI, nonunion/collective bargaining----
    Senator Begich. But, you've worked as an FBI agent with 
police----
    Mr. Pistole. Sure.
    Senator Begich.--officers all across----
    Mr. Pistole. All the time.
    Senator Begich.--the country.
    Mr. Pistole. Task forces----
    Senator Begich. Right.
    Mr. Pistole.--all across the country.
    Senator Begich. You can probably not tell me which ones are 
union or nonunion, correct?
    Mr. Pistole. I----
    Senator Begich. But, you----
    Mr. Pistole. Some are, some aren't.
    Senator Begich. Right. But, you can probably tell me who 
were the best officers.
    Mr. Pistole. Sure.
    Senator Begich. And it's irrelevant of----
    Mr. Pistole. Right.
    Senator Begich.--what--if they belong to bargain unit, or 
not. Because that never really enters the discussion. Is that 
fair?
    Mr. Pistole. That's correct.
    Senator Begich. OK. I apologize. I had no interest in 
talking about this issue. Again, as a mayor who managed public 
safety officers, I can tell you, again, their number-one goal 
is to keep the public safe.
    Mr. Pistole. Right.
    Senator Begich. Period. And so, I just take a little 
exception to the debate that just went on.
    But, let me get to very specific Alaskan issues, if I can, 
as we talked about. And one of them was the whole issue of the 
TWIC cards and how--the transportation issue. We talked a 
little about that; I want to just make sure we have this 
conversation on the record.
    Mr. Pistole. Sure.
    Senator Begich. And that is, the complication for people in 
rural Alaska to get those--that next step, where they have to 
get the card personally delivered to them, which in some cases 
could be very expensive to fly to go to the next location to 
get that, and/or time commitment.
    We talked about some ideas of trying to utilize technology 
in this way, of understanding the need to make sure the safety 
is cleared, the right person gets the card.
    Mr. Pistole. Right.
    Senator Begich. I want to reiterate the point, but also 
make sure you and I are on the same page, that you would be 
willing to look at innovative ways to ensure that they get 
these cards, that the security is there, but this expensive 
back-and-forth traveling--may be an opportunity to avoid that 
with some new technologies. Is that a fair----
    Mr. Pistole. Yes. Senator, I--if confirmed, I look forward 
to working with you and the Committee on that issue, to make 
sure that the best business model's in practice, and the latest 
technologies are used--again, while ensuring the safety and 
security of those guards and the workers is paramount.
    Senator Begich. Also, we talked about the whole issue of 
when Anchorage Airport went into a full--right after 9/11, kind 
of, almost volunteered to upgrade their facilities, in advance 
of all the regulation and everything put into place. But, 
they're--they did it because they were remodeling--renovating 
the airport, as well as others around the country. And there 
are a few of these airports, similar situation, where they 
expended money, but the TSA, now, has not reimbursed them, 
after multiple years. Is this an area you would look into and 
help us try to figure out a resolution?
    Mr. Pistole. Yes, Senator. I would look into that.
    Senator Begich. OK. The last one is just a general comment. 
And you and I had a conversation on this, and that is just the 
whole issue of the uniqueness of aviation in Alaska. Would it 
be fair, in our conversation we had, that there is some 
differences, but you have to see them as they lay out--but, in 
rural Alaska, rural states, having a full-blown TSA--for 
example--I'll just use an example I used in--with you--was in a 
village, like Chevak, which--very small--that maybe there needs 
to be not one-size-fits-all, but an understanding of rural 
internal state travel, and how TSA can be more customer 
friendly in that regard. Is that a fair----
    Mr. Pistole. That's fair, Senator. And, if confirmed, I 
look forward, again, to working with you and the Committee as 
to those issues, how we can tailor the appropriate resources at 
the respective airports.
    Senator Begich. Excellent. Last comment. And, again, I look 
forward--I know you've been to Palmer, you've been there for a 
little while.
    Mr. Pistole. Yes.
    Senator Begich. You went there for a short bit. I look 
forward to trying to bring you up to Alaska, and we'll go visit 
one of those villages.
    Mr. Pistole. Thank you, Senator, appreciate it.
    Senator Begich. Thank you very much.
    Mr. Pistole. Yes.
    The Chairman. Mr. Pistole, I warn you that the Senator who 
just spoke is obsessed, and properly so, with Alaska. And you 
will see him and hear from him often.
    [Laughter.]
    Mr. Pistole. That's----
    The Chairman. Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman.
    I'm not sure my good friend and colleague is simply 
obsessed with Alaska, he's obsessed with a lot of things.
    [Laughter.]
    Senator Warner. So, I--you know.
    Mr. Pistole, it's good to see you again. And let me----
    Mr. Pistole. Senator.
    Senator Warner.--make a couple of----
    Mr. Pistole. Likewise.
    Senator Warner.--quick comments. One, I think you've got 
the absolute right background for this position.
    Mr. Pistole. Thank you, Senator.
    Senator Warner. And I enjoyed visiting with you yesterday. 
And obviously you've had a history of public service. And to be 
willing to step into this breach, considering the challenges of 
this job, and the past challenges of some of the nominees, I'm, 
again, grateful for your willingness to step forward.
    Mr. Pistole. Thank you, Senator.
    Senator Warner. And Senator Begich already raised one of 
the issues that I was going to raise. I, too, have one of those 
airports that did the right thing, relied upon TSA assertions, 
that if you go ahead and upgrade next-generation security 
facilities during the middle of a remodeling effort, that makes 
good business sense. And then, when they came to get 
reimbursed, those dollars haven't been there. So, I look 
forward to hearing the same kind of response, as well. And this 
is probably one of those ecumenical issues, I imagine. I've got 
colleagues on the other side of the aisle who've got this same 
issue.
    Let me also reassert what I think the Chairman has 
mentioned, what I think all our colleagues believe, is that 
your number-one job is to make sure that your TSA employees 
ensure the safety of the homeland, the safety of our traveling 
public, both domestic and foreign, and clearly a--my 
conversations with you and reviewing your background, you've 
got that expertise.
    Mr. Pistole. Thank you, Senator.
    Senator Warner. But, I do believe there is another piece to 
this, and we raised this yesterday, and I want to just take 
another moment on it. And that is--you've got--you'll have 
close to 50,000 employees. And in many ways, this is the--these 
employees are the first impression----
    Mr. Pistole. Right.
    Senator Warner.--that visitors coming to our country 
interact with. It's also a required intersection with all of 
the domestic traveling public. And I don't think, again, I'm 
going to be alone in this issue, but I constantly hear 
complaints about mistreatment of the traveling public by TSA 
officers.
    I recently received a letter from a constituent who 
described a incident of waiting literally 40 minutes in a 
screening line at Dulles. And he described the TSA officers as 
surly and inappropriate. He said they had no consideration of 
folks waiting in line. And again, as we discussed, I think most 
Americans realize that the--in--the privilege of flying will 
require the privilege--or--and the requirement of additional 
screening in a post-9/11 world. But, that requirement can be 
done in a manner that is--doesn't have to be surly. I think one 
of the challenges you're going to have in this requirement is 
making sure that customer service----
    Mr. Pistole. Right.
    Senator Warner.--not to be trumped by security. Security 
always has to trump. But, customer service has to be a 
component of your TSA officers.
    And what I think added insult to injury--and again, 
probably most of my colleagues have flown out of Dulles 
recently--we've spent literally tens of millions of dollars on 
a new security mezzanine, and it's more than a bit frustrating 
for the traveling public to get carted and shuttled down to 
this new security mezzanine, with lots and lots of gates, and 
see, then, those gates woefully understaffed and--this is 
repeated comments--sometimes staffed by folks who are surly 
and--there's the ``surly and inappropriate behavior,'' the 
comments of my constituent. And these folks have got a job to 
do, but they can do it in a way that, I think, both doesn't 
mitigate their security concerns, actually would enhance the 
security concerns if they feel cooperation from the traveling 
public, as well as the role of this first impression that comes 
about with our--with many of our foreign travelers.
    So, what steps would you take to ensure appropriate 
staffing, to ensure that, as you buildup this esprit de corps 
at the TSA--you've got a new agency with a lot of burdens--that 
customer service is part of that?
    Mr. Pistole. Sure.
    Senator Warner. Civil servants ought to act in a civil 
manner.
    Mr. Pistole. Right.
    Senator Warner. And what kind of metrics could we, as the 
oversight committee, look to you, as you get into this role, to 
make sure that we're seeing that kind of progress, both in 
terms of staffing, morale, and in the customer service area?
    Mr. Pistole. Thank you, Senator. And I would just start off 
by saying I agree with all of your statements in terms of--
customer service has to be part and parcel of the security 
mission, and that oftentimes you can accomplish more through 
better customer service than the type of conduct that you 
described, which, if confirmed, my expectation and clear 
direction would be to focus on those issues.
    I think everybody recognizes, in this room and any of the 
traveling public, that the TSOs have a challenging job. Some 
would say it's very challenging, with limited reward, you know, 
only recognized if something bad happens, which is not a good 
metric.
    So, what I want to do, if confirmed, is work with the human 
resources people of TSA and the Department to assess what the 
current metrics are. I, frankly, don't know right now. 
Obviously, throughput is one of those key issues. How many 
people can get through the screening in there--with their 
carry-on bags, those things, and what makes sense. And so, I 
will, if confirmed, look forward to working with the Committee, 
to be informed by, perhaps, expectations, managing those 
expectations, and then trying to work, again, through the 
training and retraining of TSOs and other TSA personnel to make 
sure that their role in this layered security apparatus that we 
have in the United States makes sense, that we don't have undue 
interruptions to the commerce or free flow of business and of 
people and goods, while still maintaining that security that 
you mentioned.
    So, I look forward to, again, if confirmed, working with 
you and the Committee on those issues.
    Senator Warner. Well, thank you, Mr. Pistole. And I'd, 
again, want to say thank you for being willing to step up. This 
is going to be a--I think, a bit more multidimensional 
challenge. You bring the security background, I think, and 
great expertise. But, as we discussed yesterday, I think 
there's going to be a lot of management components of this 
challenge that I look forward to working with you on.
    Thank you, Mr. Chairman.
    Mr. Pistole. Thank you, Senator Warner.
    The Chairman. Thank you, Senator Warner.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman and Deputy Director 
Pistole. Appreciate your willingness----
    The Chairman. Senator Thune.
    Senator Thune.--and interest in serving as Administrator of 
the TSA.
    Like a number of my colleagues, I've been concerned, with 
the Administration's long delay in filling what, in my view, is 
a very top position. This is even before Mr. Southers and 
General Harding withdrew their names from consideration. With 
your longstanding service to our Nation at the FBI, I think you 
would bring an important perspective to TSA when it comes to 
strengthening security for the traveling public.
    Mr. Pistole. Thank you.
    Senator Thune. And so, we welcome your interest and 
willingness to serve.
    Mr. Pistole. Thank you.
    Senator Thune. There's no question that we face a lot of 
challenges, going forward, when it comes to addressing the 
changing terrorist threats. A couple of challenges that I 
believe TSA is faced with include complacency from the general 
public, and, second, the need to bolster security protocols, as 
was witnessed by the December bombing attempt in Detroit; and 
the recent New York City incident, in which Mr. Shahzad almost 
fled the country after purchasing a one- way ticket to Dubai.
    So, clearly, there are lots of challenges still out there. 
It's going to be always hard to--we're always asking for some 
of our agencies to do more with less. And I wanted to get at 
one issue and get your response to it, because the budget 
request for TSA is $8.16 billion for this year, which is a 6.6-
percent increase over Fiscal Year 2010. And I think, as you 
know, on Tuesday the White House issued a directive, to all 
agency heads, to trim at least 5 percent from their budgets.
    And the question I have has to do with an award that was 
recently issued by the TSA. It was an IT services contract that 
was $52 million more expensive than the lower bid from a 
contractor with almost the same technical solution ratings. 
Now, given the fiscal crisis that our country is facing, does 
this make sense for taxpayers?
    Mr. Pistole. Thank you, Senator. I'm not familiar with that 
particular contract. I was not privy to any of those dealings, 
yet. I am still dealing with the FBI budget, frankly, and all 
those issues. But, if confirmed, obviously that is one of the 
key areas, to make sure that taxpayer dollars are being wisely 
invested in the proper tools and technology to do the things 
that we need to do to protect the traveling public. So, yes, I 
pledge to work with the Committee on those issues, bring a 
sense of strong fiscal responsibility to this position.
    Senator Thune. OK. I would appreciate, as you undertake to 
do that, looking at the procurement process. And I'll just give 
you a little more background on this, since you're not 
acquainted with it. I hope that it's something you can kind of 
dig into. But, it's a contract that appears to be very poorly 
handled. It has been going on for more than a couple of years. 
It has been the subject of at least two successful protests, 
and a third is pending with the GAO. During the course of those 
protests the GAO found that there were irregularities in the 
acquisition process. And in addition, due to the length of time 
that has passed since the proposal for IT services was first 
issues--issued, it's my understanding that the scope of work 
sought by TSA may not accurately reflect its current needs.
    So, there has been a long tail on this thing. It has been 
in the works, as I said, for a couple of years. And I would 
hope that--it seems, to me at least, that, given the excess 
cost for the current contract award, and the flaws in the 
solicitation process, that TSA ought to take a--undertake a 
fresh, independent review of this procurement, and report back 
to Congress on plans to address concerns about the procurement, 
and plans to improve that acquisition process. So, I hope that 
we can count on you.
    As I mentioned earlier, these are hard times, you know, 
fiscally for the country. We're dealing with unprecedented 
levels of deficit spending and debt. And when you hear stories 
like this----
    Mr. Pistole. Right.
    Senator Thune.--it doesn't do anything to bolster the 
public's confidence in their government and its ability to make 
sure that they are being good stewards of America's tax 
dollars. So, I appreciate your following up on that, and hope 
that we can continue to work with you and try and bring a 
resolution to this that's acceptable and that's in the best 
interest of the taxpayers.
    I know you don't have extensive background when it comes to 
the aviation sector, in particular, but I'd like to know a 
little bit more about what you see as the TSA's role when it 
comes to general aviation, including smaller airports in places 
like South Dakota and across the country.
    There is no question, I think, that these--that--you know, 
we hear this all the time from those who use airports, from a 
general aviation standpoint. And obviously we've got a lot of 
commercial travelers. But, how do you see the TSA interacting 
and dealing with the general aviation community and the issues 
that they're concerned about with regard to safety?
    Mr. Pistole. Thank you, Senator. And I think it's back to 
the--my early statement about TSA being a threat- based, 
intelligence-driven agency with that national security mission 
in mind, and trying to answer the daily question, How do we 
manage the risk? So, with general aviation, clearly it becomes 
of--What are the risks associated with general aviation? We 
know of a number of interests by terrorists of using what may 
be seen as a softer protective screen, if you will, on general 
aviation than commercial aviation. And so, it's something that 
I need to review all the latest threat assessments to see what 
information--or what has already been done, and then try to 
make some informed judgments--again, with the fiscal restraints 
that you mentioned--recognizing you can't be all things to all 
people at all times in all places. So, how do we allocate those 
limited resources in a meaningful fashion based on risk?
    But, I look forward to working with you and the Committee 
as to that--those issues.
    Senator Thune. OK.
    Thank you, Mr. Chairman. I see my time's expired.
    The Chairman. Thank you, Senator Thune.
    And when you hear of examples, like you mentioned, it's 
important to tell the Committee about it, because we're not 
aware of that.
    Senator Thune. OK.
    The Chairman. So, that would be helpful.
    Senator Thune. We will certainly do that, Mr. Chairman.
    The Chairman. All right.
    Senator LeMieux.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    First, I want to say, Mr. Pistole, thank you for your 
service; not just your willingness to submit yourself for this 
position, but your service with the FBI since 1983.
    Mr. Pistole. Thank you, Senator.
    Senator LeMieux. And I want to take a moment, if I may, to 
thank your wife and your daughters. We all----
    Mr. Pistole. Appreciate that.
    Senator LeMieux.--serve with the support of our family. And 
you've made sacrifices, but they've made sacrifices, too. So--
--
    Mr. Pistole. Absolutely.
    Senator LeMieux.--thank you----
    Mr. Pistole. Appreciate that, Senator.
    Senator LeMieux.--for the partnership that they have 
provided for you.
    I think you've got great credentials for this job. I 
enjoyed our meeting the other day. You and I spoke a lot about 
technology. And I want to echo my colleague from South Dakota's 
comments about using technology for purposes of efficiency.
    Mr. Pistole. Right.
    Senator LeMieux. We've heard about long lines in our 
airports in Orlando and Miami. And there's a lot of concern 
about the modernization of the way that the TSA employees work, 
whether they are on overtime, because they're not using, 
perhaps, the best technology possible.
    So, I look forward to you reviewing those contracts and 
systems and evaluations, to make sure we're doing the best 
thing possible. And know I have your commitment to do that.
    Mr. Pistole. Absolutely, Senator. I look forward to doing 
that.
    Senator LeMieux. Also on technology, you know, we spoke 
about this issue, and we've talked about it here at this 
committee before, when we were evaluating some of the folks 
that came before you, and that is--is the general frustration 
that the American people have that an 85-year-old grandmother 
or, you know, my 5-year-old child will be pulled aside for a 
lot of extra screening, or delayed, when we know that more 
than, you know, 90 percent of our threats are from Islamic 
extremists. And we need to do a better job of protecting 
against those who are going to do danger to us, and trying to 
speed other people through who pose no danger to the American 
people.
    And I know that there are laws in place that--as we 
discussed, that tie our hands, in some extent, about how we can 
use predictive modeling technology and things like that. But, I 
would like for you, just on the record, to express your 
commitment that we're going to try to use technology, we're 
going to look to what other countries, like Israel, are doing. 
They've got, apparently, software that they're using now that 
checks the stress on people. They use a lot of just personal 
interaction with the folks who get on the plane, to try to 
qualify them.
    And I just want to get your commitment----
    Mr. Pistole. Yes.
    Senator LeMieux.--on the record, that we're going to look 
for innovative ways so that the average American traveler, who 
presents no threat, is going to be able to get through quicker, 
but we are going to provide the scrutiny we need on those who 
might actually endanger our country.
    Mr. Pistole. Well, thank you, Senator LeMieux, and I 
appreciate your focus on technology. We know there's a lot out 
there. It's a question of the right technology with the right 
application at the right time. And with TSA being part of that 
layered security, my hope and goal is to make sure that 
intelligence will help inform those decisions and judgments as 
to what that right technology is--going back to Christmas Day, 
that concealment method and--that we discussed.
    But, clearly, I believe that technology has to inform and 
enable those functions. I had the opportunity to meet with Dr. 
Tara O'Toole from DHS S&T, the Science and Technology 
directorate, last week to have some of these discussions about 
what is the technology that the Department, the agency, is 
looking at. I had a opportunity to have a demonstration out at 
the integration facility, just south of Reagan Airport, the TSA 
has to do some of the testing of the equipment, the enhanced 
imaging technology, before it's deployed, and then had the 
opportunity to have that demonstration.
    But, again, with all the great work that, for example, the 
Israelis do, in terms of the behavior detection, obviously TSA 
does that as part of that layered security. If there is 
technology that helps enable that, in terms of information--
obviously, in the FBI we have behavioral analysis experts who 
focus on those type things. Again, all enabled by, not 
encumbered by, technology. So, I look forward to working with 
you on that.
    Senator LeMieux. I appreciate that. And I know that you 
have a focus on it.
    And it's very important, Mr. Chairman, because we have so 
many millions of people traveling through this country every 
month, and we have to do what Senator Warner said, which is--
these folks have to be involved in customer service, too.
    I appreciate the fact, now, that it seems like the TSA 
folks are trying to be more friendly. I appreciate the fact 
that, when you're traveling with a family, like I did back down 
to Florida this week, with four kids, that there was a separate 
line for families that are traveling with a baby, and all those 
kinds of things. I appreciate that.
    And, you know, the balance you have is to keep us safe----
    Mr. Pistole. Right.
    Senator LeMieux.--but to not burden our civil liberties, 
and to try to get us through the airports as quickly as 
possible. So----
    Mr. Pistole. Agreed.
    Senator LeMieux.--if you can continue to focus on the 
customer service aspect, on the one hand, and then going after 
the actual people who threaten us, on the other, I think that 
would be a great focus for you.
    Mr. Pistole. Thank you, Senator LeMieux.
    Senator LeMieux. OK.
    Mr. Pistole. Look forward to it, if confirmed.
    Senator LeMieux. Yes, sir.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator LeMieux.
    Mr. Pistole, I'm going to ask the next question. I have to 
then do something.
    Mr. Pistole. Yes.
    The Chairman. Senator Dorgan, will be the chairman, which 
he probably ought to be anyway----
    [Laughter.]
    The Chairman.--and will carry the hearing.
    I want to just go on with what Senator LeMieux was saying, 
because the tradeoff, really, with the American people is that 
we're going to put you to a certain amount of inconvenience, 
and that inconvenience is usually related to the last 
incident----
    Mr. Pistole. That's right.
    The Chairman.--as opposed to forward-looking. The tradeoff 
is that in return, we're going to give you good service, and 
friendly service, and fast service--and especially fast 
service--but thorough. The technology helps on that.
    Mr. Pistole. Right.
    The Chairman. I've been through a lot of airports where 
there have been thumbprints and other things that simply aren't 
being used.
    I want to go to what Senator Warner said about Dulles 
Airport. It's one of the most frustrating experiences I've ever 
been through. When you walk a half a mile, then take a train 
for half a mile to go up and down and all over, then you're 
really confronted with, like, 15 or 20 different stations for 
people to go through, and only two of them are manned, and it 
takes 45 minutes. That's not carrying out the bargain that you 
do for security. And, in fact, it probably rushes security. It 
may have the opposite effect.
    So, for my first question of you, is that a solvable 
problem? I mean, I don't do a great deal of travel. I can't 
talk about Los Angeles Airport or San Francisco Airport and all 
the rest of them. I normally deal, as does Senator Dorgan and 
Senator Begich, with small airports, and everything is fine. 
But, there has got to be a solution to that. I mean, we can't 
have that Dulles syndrome. And I'm assuming, if it's there, 
that it's in other places.
    The deal is, you get tougher security----
    Mr. Pistole. Right.
    The Chairman.--and you get tougher technology. In return 
for that, you get better service and friendly service, and 
that's a fair deal. We're not upholding--at least at those 
airports that I can think of--that deal.
    How do you do that with the budget cuts that may come your 
way that Senator Thune mentioned? I mean, do you have enough 
money to sufficiently staff other stations. I can't tell you 
the anger of, not just your Chairman here, but of all the 
people in both lines, muttering as they looked in both 
directions, seeing all kinds of unopened lines.
    Mr. Pistole. Thank you, Mr. Chairman. You've obviously 
touched on a very significant issue. And, in the course of this 
process, I've had the opportunity to hear some personal--both--
positive stories, but some very frustrating times, including 
one of a certain Senator who had a 2-hour wait recently. Very 
frustrating. Just in terms of the economic impact and the 
inefficiencies of that.
    So, I think the staffing issue, again, has to be informed 
by the intelligence, because we have to make sure that the 
people who are doing it--making those staffing decisions are 
informed by the intelligence, and then have a good business 
model for what they're doing.
    So, if confirmed, what I pledge to do is work with the 
Committee in making sure there are metrics in place, because I 
believe that what gets measured gets done. And if we're not 
paying attention to those type of things, such--what's the 
throughput rate--and I believe those things are--but, I just 
don't have enough information at this point, other than to say 
it is one of my top priorities to look at, because the customer 
service has to be positive to keep the American public engaged 
while keeping the security at the forefront.
    The Chairman. I understand that.
    I'm going to ask one more question, which you can answer, 
and one more that you can think about.
    You go to another part of Dulles Airport, which is where 
general aviation lands--Senator Thune brought this up--and 
there's nothing. There are no waiting lines. Nobody is checking 
identity. You just carry whatever you have. You walk out. You 
walk on. There are no scanners that you walk through. That is 
the majority of airplanes in the air at any given time.
    I'm not talking about crop dusters, I'm talking about, some 
kinds of King Airs, and certainly jets. And they are the 
majority of the flights that are using our antiquated, air 
traffic control system as we try to build a new one. They don't 
participate in this. They've done little things, but, they're a 
very tight group, and it's very easy for them to make phone 
calls to the Finance Committee and to this committee and shut 
down any effort to make them spend more money. Now, they're 
doing a little bit more this year, but not much. Are you ready 
to take that on, because nobody else has been?
    Mr. Pistole. Well, thank you, Mr. Chairman. Obviously, if 
confirmed, I would look forward to engaging the general 
aviation community, in terms of what they see as the best 
approach, in terms of risk management, recognizing that they 
have a vested interest in a certain process, but also 
recognizing that threats can come from general aviation 
aircraft, such as we saw in February, with the IRS building in 
Austin, Texas. We know of other, well, terrorist groups who 
have expressed interest, as you mentioned, in crop dusters, 
different things. So, if it's a vulnerability that's not being 
addressed, that's what I want to make a determination of and 
then look forward to working with you and the Committee to find 
ways forward to address those issues.
    The Chairman. So, that is a strong yes----
    Mr. Pistole. That is----
    The Chairman.--answer?
    Mr. Pistole.--a yes.
    The Chairman. You will not, years from now, have failed to 
address that and change the behavior of general aviation?
    Mr. Pistole. Yes----
    The Chairman. Remember they can make phone calls. And, boy, 
when they make phone calls, everybody just bows down, except me 
and a few others here. And it's unfair, it's an unjust matter.
    I'll leave my other question and turn the chair over to 
Senator Dorgan.
    And I thank you. I will certainly be voting for you. And 
I'd, incidentally, say, out of turn perhaps, that we'll be 
having an off-the-floor markup on your nomination, next week.
    Mr. Pistole. Thank you very much, Mr. Chairman.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan [presiding]. Mr. Chairman, thank you very 
much.
    And, Mr. Pistole, I'm going to be supporting your 
nomination. I think you have a----
    Mr. Pistole. Thank you, Senator.
    Senator Dorgan.--set of credentials that is sorely needed 
at TSA. And I think all of us on this committee would believe 
that that has been vacant far too long, for a number of 
circumstances. But, it is a critically important position.
    You know, decades ago, you used to just go to the airport 
and walk onto an airplane when they told you it was time. A lot 
of younger Americans have never experienced that. But, you just 
boarded an airplane. And then they began to hijack airplanes, 
particularly to Cuba, but some other locations, as well. And 
pretty soon they started screening passengers to make sure they 
didn't have a weapon when they got on. And the screening has 
become more intensive and more intrusive.
    And nowadays, of course, the challenges of screening are 
pretty substantial. All of us have watched a 6-year-old child 
be wanded at an airport someplace, or a Catholic nun being 
intensively screened. You know, and so you watch those things, 
and you just shake your head.
    On the other hand, we understand we want to get on an 
airplane that is free of weapons----
    Mr. Pistole. Right.
    Senator Dorgan.--and that is not likely to be commandeered 
or hijacked or threatened.
    So, there is this issue of inconvenience. Screening is an 
inconvenience.
    Mr. Pistole. Right.
    Senator Dorgan. The question is how much. And can we do the 
job that's necessary for screening, while--and protect the 
American people and protect the traveling public--while 
reducing the inconvenience to the extent possible?
    And, as Senator Rockefeller indicated, we traditionally 
protect against the last attack and the last mode of attack. 
You know, we found out that you could put a bomb in a shoe, and 
so we start taking off our shoes. Not until then did we start 
taking off our shoes, but then we did. We found that they can 
put a bomb in underwear; that has not resulted in specific 
actions. But, you know, we're continuing to--I wasn't trying to 
be funny there----
    [Laughter.]
    Senator Dorgan.--I was--as I was thinking about it. We're--
--
    Mr. Pistole. I think minds were wondering somewhere----
    Senator Dorgan. Yes.
    Mr. Pistole. Yes.
    [Laughter.]
    Senator Dorgan. And bottles of--3 ounces of----
    Mr. Pistole. Right.
    Senator Dorgan.--liquid. And we're----
    Mr. Pistole. That's right.
    Senator Dorgan.--continuing to try to address the things we 
now see can happen.
    So, I want to ask you a series of questions.
    Mr. Pistole. Yes, sir.
    Senator Dorgan. Number one, you said that you were involved 
in the investigation of Northwest 253, which occurred at 
Christmastime, with a man that boarded an airplane destined for 
the United States with a bomb in his underwear. And I want to 
ask you, as you looked at that, tell me what you think the 
failings were. I have a notion of a fair number of failings. 
But, what did you sense--as someone who was involved in the 
investigations, what were the failings?
    Mr. Pistole. Well, Senator, I think there were--there was a 
lot of information that was out there, in terms of the 
intelligence-community collection. Unfortunately, none of it 
was dispositive or specific enough to say, ``This individual is 
currently posing a threat.'' And so, the challenge that--which 
I think has been reviewed and discussed at some length--is, How 
do we ensure, as a U.S. Government, that all those holdings of 
information--even including, perhaps, the misspelling of a 
name, as has happened with AbdulMutallab, or the timely sharing 
of information to the decisionmakers who have to ensure--for 
example, should a visa be revoked, on the one hand, should the 
person be on a No Fly or Selectee list, on the other hand? What 
is the other intelligence about their--about the origin? Is 
there any intelligence about the type of device?
    So, those are three key areas that I think that the U.S. 
Government identified and is working at addressing.
    Senator Dorgan. Well, let me just ask more specifically. 
This is a potential terrorist whose father went to American 
authorities and pointed at his son----
    Mr. Pistole. Right.
    Senator Dorgan.--and said, ``This guy is potentially 
troublesome''----
    Mr. Pistole. Right.
    Senator Dorgan.--``hanging around with people that are 
difficult, probably terrorists.''
    Mr. Pistole. He's concerned about him, right.
    Senator Dorgan. So--that's right. A father points to his 
son----
    Mr. Pistole. Right.
    Senator Dorgan.--and tells American authorities, ``Watch 
this.''
    Mr. Pistole. Right.
    Senator Dorgan. As a result of that, he is not put on a No 
Fly List. He does not have an open visa that is revoked. So, 
those are two major failures, it----
    Mr. Pistole. Right.
    Senator Dorgan.--seems to me. And it might have been 
spelling, it might have been something else, it might have been 
people asleep at the desks, up and down the line. But then, in 
addition to that, in addition to somebody saying, ``Here's the 
guy. Watch him,'' and we don't watch him, then he gets to an 
airport with a bomb in his underwear. So, how does he get 
through a screening at an airport with a bomb in underwear?
    Mr. Pistole. As we know, Senator, from going back over all 
of the information we have, and through the debriefings of Mr. 
Abdulmutallab, of course, who has cooperated since that time, 
he was able to get through the screening in Amsterdam, Schiphol 
Airport. He went through a screening, but, because of the 
concealment technique that was used, where he had never touched 
it, so explosive trace detection equipment, even if they'd done 
it on his hands, would not have picked up any explosives, 
because he had not touched it, and there were no metallic 
parts, obviously--this was a chemical TAP--TATP/PETN 
combination----
    Senator Dorgan. Tell us what those letters mean.
    Mr. Pistole. Yes. Triacetone triperoxide is the initiator. 
And when the passengers on the plane heard what they described 
as firecrackers, that was actually--there's actually a 
precursor, glycol--it's a--KMNnO is the chemical composition--
initiator that goes into the TAPT. That was what--when people 
described firecrackers, that's what the--it was the TAPT 
initiating. And then the main charge is a PETN--and I don't 
recall what all that stands for--but, it's a common explosive 
device, not dissimilar to C4, for example, for----
    Senator Dorgan. Right.
    Mr. Pistole.--military use. So, it was--we were very, very 
fortunate that the main charge of PETN, which was nearly double 
the amount that Richard Reid had in his shoe, that you 
mentioned, shoe bomb from December of 2001. We did some 
testing, afterwards, of Richard Reid, and--on an unpressurized 
fuselage of a plane, would have blown a hole about this big in 
the side of the fuselage, unpressurized. And, of course, you 
know, pressurized--Abdulmutallab had nearly twice that amount. 
And so, obviously, the damage would have been much more 
significant, probably causing catastrophic failure to that 
aircraft.
    So, that is the challenge of, How do we work with our 
international partners to make sure that they have the latest 
technology, techniques, and training, that, if flights are 
going to come into the U.S., that they apply the same standards 
that we have? And I know Secretary Napolitano and the Deputy 
Secretary Jane Lute have been engaged in a worldwide effort in 
that regard, to engage our foreign partners, to ensure that 
those standards are similar, if not better than the U.S. 
standards for anybody coming in. And so, that's been one of the 
challenges since Christmas Day. And, if confirmed, I look 
forward to working with our international partners, both in the 
security and law enforcement services, but, obviously, the 
aviation industry, to make sure those screening standards are 
up to the U.S. standards.
    Senator Dorgan. All right. I have additional questions, but 
I'll wait and ask in another round.
    Senator Hutchison.
    Senator Hutchison. No further questions.
    Senator Dorgan. Senator Begich, do you have additional 
questions?
    Senator Begich. No further questions.
    Senator Dorgan. Well, then let me continue on this issue of 
the screen. Because, again, a father says, ``Here's the guy.''
    Mr. Pistole. Yes. Yes.
    Senator Dorgan. And we miss a bunch of opportunities to 
revoke a visa and put on a No Fly List this person that's been 
identified, reasonably so, for us. And then he gets through a 
screen because he's done whatever he has done with this 
concealed bomb to mask its image on a screen and to not have 
metal parts to it.
    Let me ask about the prevalence of the capability of the 
screening devices at most airports, both here and abroad, to 
detect exactly what went through a screen undetected at 
Christmastime.
    Mr. Pistole. Sure, Senator. Obviously, the X-ray machines, 
the typical ones that you see at most airports, would not pick 
up the type of device he used, because there are no metal parts 
to it. The new advanced imaging technology machines would give 
a much better opportunity, because there would be an anomaly 
identified in--hopefully--that's one of the things that--need 
to make sure that the training is up to speed, so if an anomaly 
is detected, then a further patdown or other additional 
screening would be appropriate. It--again, it's a----
    Senator Dorgan. But, those are not in use, largely, at this 
point.
    Mr. Pistole. There are--have been a number of the 
enhanced--the AIT machines deployed through U.S. airports. 
There's a plan for, I believe, 450 by the end of the year. 
But--I have to check my numbers on that--but, it's something 
that--there is a plan to do that, all the while addressing 
whether that it is focusing on yesterday's threat, and they've 
now developed a new threat. And so, we have to make sure the 
intelligence is helping inform the latest R&D, research and 
development, for the best technology to defeat other types of 
threats.
    Senator Dorgan. But, some of the 9/11 conspirators, 
terrorists, they went to a small airport in Maine to board an 
airplane, never again then to have to go through a screening 
process.
    Mr. Pistole. Right.
    Senator Dorgan. And when you talk about deploying 400, the 
question is, Will the entrance into the system, from a small 
airport in a remote area, detect or catch that circumstance?
    Mr. Pistole. You're absolutely right, Senator. Obviously, 
Muhammad Atta and his three coconspirators, who flew from 
Portland, Maine, to Boston Logan the morning of 9/11, had 
considered, we believe, the greater possibility, not 
necessarily from a screening perspective, but from the 
suspicious-activity-behavior perspective. As opposed to having 
a larger group flying from Boston Logan on two flights, they 
decided to have four go from Portland, Maine, to look less 
suspicious. But screening's a key part of this, Senator.
    Senator Dorgan. And let me ask you about screening, and 
especially the issue of body imaging.
    Mr. Pistole. Yes.
    Senator Dorgan. Have you seen the examples of the most 
sophisticated body imaging? And give me your evaluation of 
that, in the context of being a husband, a father, a citizen--
--
    Mr. Pistole. Sure.
    Senator Dorgan.--and then also in the context of being 
someone who wants to see everything about anybody that goes on 
an airplane, in order to keep a weapon off that plane.
    Mr. Pistole. Well, that's right. I mean--and you've hit on 
that tension, that dynamic that we--that TSA and the government 
is dealing with.
    Yes, I have had a demonstration of the screening equipment 
and the privacy steps that are currently employed. Obviously, 
having screener, who never sees a person, reviewing the image 
in a separate room; the person who is physically engaging the 
passenger never sees that image; and that image is deleted 
immediately after that person is cleared. So, there are privacy 
issue--or privacy safeguards built in. That being said, some 
people are concerned about--you know, they're modest and would 
not want that. At this point, that type of an enhanced--or the 
AIT screening, the enhanced imaging technology, is optional. 
So, people, if they don't want to go through that, they can go 
through the traditional metal detector, wanding, patdown, as 
appropriate.
    So, I think it's the best technology available, for right 
now, trying to balance the security with the privacy issues. 
But, if confirmed, I look--would look forward to working with 
the Committee, in terms of, Are we using the best approach?--
again, both from a training, techniques, and technology 
perspective.
    Senator Dorgan. You're going to be confronted with that 
issue a lot, I think, as we try to determine, What is it we 
implement that further strengthens our ability to detect a 
weapon?
    Let me ask the issue of trying to move frequent flyers 
through these lines. As you know, there was a company that was 
called Clear that started up and was established. Are you 
familiar with that at all?
    Mr. Pistole. I've had some briefings on it.
    Senator Dorgan. Yes.
    Mr. Pistole. I have a little bit of information about it.
    Senator Dorgan. That company took applications from people, 
measured their--they got their background, and measured their--
the iris of their eyes, took their fingerprints, and so on, and 
that way, when that person who signed up paid a fee, went 
through the screening line, with their fingerprints and so on, 
immediately they determined, ``All right. We know that person. 
That person is in the system. That person's a Presbyterian 
minister from Herreid, South Dakota, or whatever. We know this 
person.''
    Mr. Pistole. Yes,
    Senator Dorgan. Fingerprints, iris, and so on.
    Mr. Pistole. Right.
    Senator Dorgan. That company, however, I believe, went 
bankrupt. And do you know whether there are other efforts in 
the private sector or public sector to try to address the 
question of someone who flies twice every week, that's their 
job, as a----
    Mr. Pistole. Right.
    Senator Dorgan.--salesperson or representative, and who 
perhaps we can know much better and move through much more 
quickly? I'm not talking about----
    Mr. Pistole. Sure.
    Senator Dorgan.--Members of Congress, here. I'm talking 
about----
    Mr. Pistole. No. No. Understood.
    Senator Dorgan.--people who are salesmen and others that 
fly all the time.
    Mr. Pistole. Right. Yes. I understand there are some 
efforts underway in the private sector to replicate that 
business model and to make sure that the messaging is accurate 
so it's--people realize that they're still going to through 
screening----
    Senator Dorgan. Right.
    Mr. Pistole.--it more a concierge service, if you will, of 
being able to go--with that trusted ID and identification 
system to expedite that process. So, if confirmed, I would 
obviously look into that and see if there are viable ways of 
doing that--again, ensuring the safety of the traveling public.
    Senator Dorgan. One last question, if I might. Let's assume 
that you are confirmed, in a matter of days, and you, at long, 
long last, assume this role, because it has been vacant far too 
long. What is your most immediate and urgent concern as you 
turn your attention to running this agency?
    Mr. Pistole. Thank you, Senator. So, one of the first 
things I did when I was nominated was to meet at TSA 
headquarters and get a threat briefing, an intelligence 
briefing. So, my top priority is making sure that TSA has the 
latest intelligence, threat information, and is making informed 
judgments as to how to allocate their resources. So, that's the 
top priority, followed very closely by addressing workforce 
development issues, as I mentioned; and then, third, engaging 
all stakeholders in the business of TSA to make sure that they 
know that their voice can be heard and that all the issues that 
they are dealing with will be addressed by TSA.
    Senator Dorgan. And I said one last question. Let me ask 
one more, if I might. Could you submit to us--I'll submit a 
question in----
    Mr. Pistole. Sure.
    Senator Dorgan.--writing on the issue of soft targets. 
Terrorists, obviously----
    Mr. Pistole. Right.
    Senator Dorgan.--take a look at the target opportunities to 
commit an act of terrorism in our country, and they see what we 
would consider hard targets--that is, the targets we are now 
protecting very substantially--and then they see soft targets, 
where our attention is not there, because we've not experienced 
the same threat there. And I'd like to ask if you might--from 
the standpoint of transportation----
    Mr. Pistole. Sure.
    Senator Dorgan.--give us your estimate of, What are the 
lists of soft targets that concern you, and that are going to 
require your attention? I think--I won't ask that publicly 
here. I think I'll ask that you submit that to us----
    Mr. Pistole. Right.
    Senator Dorgan.--in writing, if you would.
    Mr. Pistole. Be glad to do that, Senator. I've seen a 
number of classified reports, as you indicate, both by the DHS 
and the Intelligence Analysis Group, also by--within the FBI 
and the National Counterterrorism Center--have all done 
collaborative work in that regard. And, as you know, there are 
a number of soft targets out there.
    Senator Dorgan. All right. Well, let me join others who 
have thanked your family for lending you for some public 
service here for a while.
    Mr. Pistole. Thank you, Senator. Much appreciated.
    Senator Dorgan. And I--as I said, I will be a strong 
supporter of your nomination. Hope that we can move this with 
great speed, because it is long overdue.
    The deadlines for questions to be submitted for the record 
for this nomination will be 6 p.m. on Friday.
    And--anything, finally, Senator Hutchison?
    Senator Hutchison. Thank you very much, Mr. Pistole.
    Senator Dorgan. If not, we thank you, Mr. Pistole, for 
being with us today.
    This hearing is----
    Mr. Pistole. Thank you very much, Senator. Appreciate your 
support.
    Senator Dorgan. This hearing's adjourned.
    [Whereupon, at 11:28 a.m., the hearing was adjourned.]


                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            John S. Pistole

    Question 1. As you are aware, almost everyone who flies has 
experienced, or knows someone who has experienced, an unpleasant 
encounter with TSA employees. Yet, while security should be TSA's top 
priority, it may not be necessary to treat any and every traveler as a 
security threat. What quality measures do you propose to take to insure 
higher vigilance of TSA inspection teams, in order to curtail these 
often-recounted ``horror stories''?
    Answer. While security will always remain our top priority, if 
confirmed, I am fully committed to ensuring that TSA takes into account 
the needs of travelers and businesses on all modes of transportation. 
If confirmed, I will make it clear throughout the agency that all TSA 
employees must ensure the respectful treatment of the traveling public 
while fulfilling their critical duties of protecting the Nation's 
aviation system. I will also work with TSA's human capital leadership 
to assess ways in which TSA can improve its customer service--through 
enhanced training, drills, and strengthened oversight, among other 
strategies.

    Question 2. Hawaii has the distinction of being the most isolated 
group of islands in the world. It is 6 hours behind us here on the East 
Coast, and 3 hours behind the West Coast. Given its distance from other 
states and the high volume of travelers from diverse countries we 
welcome every day, how do you propose maintaining the service TSA 
provides for Hawaii in the event that a threat occurs?
    Answer. I understand that the Department of Homeland Security (DHS) 
recently issued its Quadrennial Homeland Security Review, which 
identified ensuring the Nation's resilience to terrorist attacks, 
natural disasters and other threats, as a critical mission of the 
agency. If confirmed, I will work with DHS, TSA's program offices and 
stakeholders to incorporate resilience and protection throughout the 
Nation's transportation networks, including in Hawaii.

    Question 3. If given the opportunity, how would you propose 
expanding TSA's focus from reactionary (in response to the threat of a 
shoe bomb, we are now asked to send our shoes through TSA's X-ray 
machines; similarly, in response to the threat of liquid bombs, we are 
asked to limit our carry-on liquids to under three ounces), to 
proactive? Is such a thing possible within the limits of TSA's scope 
and duties?
    Answer. I understand that the technology experts at TSA, the 
Department of Homeland Security's Science and Technology Directorate, 
and their counterparts at the Department of Energy and its National 
Laboratories are currently working together to ensure that we have the 
best technology available to respond to new and emerging threats. If 
confirmed, I will work with these and other officials within TSA, DHS, 
the Department of Energy, and other Federal Government agencies to 
evaluate our existing systems to ensure we remain ahead of our 
adversaries in anticipating potential future vulnerabilities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            John S. Pistole

    Question 1. How do you feel about registered traveler programs? If 
you support them, will you work with the industry to facilitate a safe, 
thorough, expedited way for pre-screened travelers to go through 
airport security going forward, and for their personal information to 
be protected?
    Answer. At this point, I have not yet had the opportunity to fully 
evaluate the registered traveler programs. However, if confirmed, I 
will review these programs in depth. My goal is to ensure that 
intelligence informs decisions, so we can enhance our focus on the 
threat, while protecting the privacy of the American public.

    Question 2. When implementing safety and security rules and 
policies for general aviation, will you continue to work with the GA 
community to ensure that those rules are appropriate and feasible?
    Answer. Yes. If confirmed, I look forward to working closely and 
continuing TSA's collaboration with the general aviation community 
regarding security requirements.

    Question 3. I would also like to echo Sen. Warner's and Sen. 
Begich's concerns about airports that have still not been reimbursed 
appropriately for in-line EDS systems. I look forward to working with 
you, Sen. Warner, Sen. Begich and others to rectify this situation.
    Answer. If confirmed, I will review the issue and would welcome the 
opportunity to work with you, Senator Warner, and Senator Begich on 
this matter.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            John S. Pistole

    Question 1. Worldwide, mass transit and passenger rail have been 
frequent targets of terrorist attacks. Compared with aviation, the 9/11 
Commission stated that, ``opportunities to do harm are as great or 
greater in surface transportation.'' Yet our transportation security 
efforts--both resources and personnel--have largely focused on 
aviation. As TSA Administrator, how will you better protect the 
millions of Americans who travel by mass transit and passenger rail?
    Answer. Rail security is of vital importance to our economy, and 
identifying and implementing capabilities to further reduce the risk of 
terrorism to mass transit and passenger rail is a key goal of the TSA. 
From my experience with the FBI, I believe that training and 
information sharing are important components of a robust security 
system. I was closely involved in the disruption of the plot by 
Najibullah Zazi and others to detonate bombs in the New York City 
subway system, and I fully understand the challenges involved in 
protecting the mass transit system. If confirmed, I would conduct an 
in-depth review of mass transit security needs. I understand that 
significant efforts are already underway, such as the Surface 
Transportation Security Priority Assessment and the continued 
distribution of grant funds for surface transportation security to 
transit providers.

    Question 2. The TSA has missed many of the deadlines outlined in 
the 9/11 Act for securing our surface transportation. For example, TSA 
has only completed a portion of the risk assessment and national 
security strategy for our Nation's rail system that was due in 2008. 
What specific steps will you take to promptly complete overdue items 
and meet all future Congressional deadlines for surface transportation 
security?
    Answer. If confirmed, I will make it a Transportation Security 
Administration (TSA) priority to continue working as expeditiously as 
possible toward completion of any 9/11 Act requirements that are not 
yet met.

    Question 3. In January, a man intentionally breached a secure 
airport exit lane at Newark Airport, shutting down a busy terminal for 
over 6 hours and forcing sixteen thousand passengers to be re-screened. 
No matter how much money we spend on technology to screen passengers, 
it's useless if someone can just slip through the back door. What 
changes will you make to secure exit lanes, especially at our busiest 
airports?
    Answer. I understand that ensuring the security of sterile areas of 
airports through exit lane control is an important responsibility of 
the Transportation Security Administration and its airport partners. If 
confirmed, I will conduct a thorough review of existing protocols and 
explore appropriate methods through staffing and technology to ensure 
that proper exit lane controls exist and are enforced.

    Question 4. In the Newark Airport breach, the security of a busy, 
heavily traveled exit was left to just one TSA guard. A man was able to 
sneak in when that lone guard was distracted. Will you examine TSA 
staffing levels at Newark Airport so that critical homeland security 
responsibilities are not left to just one individual?
    Answer. If confirmed, I will review the level of staffing at exit 
lanes at Newark International Airport (EWR) and I will take steps to 
ensure that those Transportation Security Officers who are assigned to 
exit lanes are appropriately trained and focused on their 
responsibilities. I will also work to ensure that the exit lane design 
provides the proper control to best protect sterile areas of airports

    Question 5. The GAO recently found that the TSA's behavioral 
detection program resulted in over one thousand arrests in our Nation's 
airports, but none of these arrests were for terrorism. However, 
sixteen individuals later identified as terrorists were able to pass 
through airport security, including one at Newark International 
Airport. As Administrator, what actions will you take to reform this 
program?
    Answer. As a career FBI officer with extensive experience in 
counterterrorism and counterintelligence, I believe behavior analysis 
can add a critical layer to transportation security. If confirmed, I 
intend to work with TSA and the leadership of the Department of 
Homeland Security to ensure that TSA's behavioral detection program is 
an effective, science-based program that enhances transportation 
security.

    Question 6. After the Moscow subway attack that killed forty people 
and injured dozens more, a number of transit agencies across the 
country visibly increased their security presence. However, we heard 
very little from the TSA. After a major terrorist attack on a mass 
transit system, what role should the TSA play in communicating with the 
public?
    Answer. One of the best ways to promote transportation security 
awareness among the public is to engage both industry and the public in 
developing and implementing security initiatives. Homeland security is 
a shared responsibility for all Americans. The traveling public and 
individual citizens are critical partners in our security efforts, as 
demonstrated by the effectiveness of the ``See Something, Say 
Something'' efforts that proved so critical to averting the attempted 
bombing in Times Square. If confirmed, I would conduct an in-depth 
review of information sharing with our transportation security partners 
and the general public. From my 26 years of experience with the FBI, 
including my current position as Deputy Director, I appreciate the 
necessity of proactively communicating appropriate information to 
stakeholders, including the general public. If confirmed, I will bring 
that experience to my position at the Transportation Security 
Administration.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            John S. Pistole

    Question 1. During your testimony, you mentioned that TSA intends 
to deploy 450 full-body scanners over the course of this year. What is 
your understanding of the effectiveness of the new full-body scanning 
technology?
    Answer. I believe Advanced Imaging Technology (AIT) is an effective 
technology that provides important detection capabilities--serving as 
one of TSA's many layers of security. If confirmed, I will further 
review the technology and the deployment plans to ensure threat-based 
intelligence continues to inform the agency's efforts to defeat 
existing and future threats to aviation security.

    Question 2. How will you work to ensure that TSA operators use 
these scanners to their maximum efficiency?
    Answer. If confirmed, I will work to ensure that TSA personnel 
receive the training and resources necessary to maximize AIT's 
capabilities to effectively screen and detect threats to aviation 
security. I will also review TSA's use of the industry recognized 
Staffing Allocation Model to effectively allocate staffing levels to 
meet traffic volumes.

    Question 3. How will you work to ensure that we continue to 
evaluate and improve upon this screening technology to meet evolving 
threats?
    Answer. If confirmed, I will work with TSA's technology and 
operational experts in evaluating AIT, in both laboratory and 
operational settings, to improve the technology itself processes for 
utilizing it, and training for those operating it to maximize screening 
capabilities. Moreover, I intend to work very closely with the 
Department of Homeland Security's Science and Technology Directorate to 
maximize research and development capabilities.

    Question 4. Since 2008, TSA has been conducting a procurement 
process for an information technology (IT) contract to maintain a 
secure, nationwide network linking TSA headquarters, regional offices 
and airport locations and provide IT and communication equipment. 
During this time period, the process has been subject to three 
protests. The first two of these protests were upheld by the GAO and 
the third is currently pending with the GAO. During the course of the 
protests, the GAO has found that there were irregularities in the 
acquisition process. Do you have plans to undertake a fresh review of 
this procurement to assess whether the contract has been fairly 
awarded?
    Answer. While I am not aware of the specifics of this particular 
procurement, it is my understanding that this acquisition has been 
conducted utilizing best value procurement techniques under which 
technical performance is measured against cost in order to ensure the 
government obtains the best value for required supplies or services.
    If confirmed, I will work to ensure that TSA's procurement policies 
reflect current security requirements while prioritizing fiscal 
responsibility.

    Question 5. If confirmed, will you conduct a review of TSA's 
procurement process to ensure that taxpayer dollars are being wisely 
invested?
    Answer. Yes.

    Question 6. Under current TSA policy, luggage checked at 
appropriately cleared Canadian airport facilities must be rescreened 
before it is transferred to a U.S.-based connecting flight. This 
requirement frequently causes delayed-connections for passengers as 
well as significant logistical problems for U.S. airlines and airport 
operators, particularly the Minneapolis-St. Paul Airport. It is my 
understanding that TSA has been working with stakeholders and Canadian 
authorities for well over a year to reach an agreement on this issue. 
When do you think an agreement might be reached that would negate the 
need for such rescreening of baggage while ensuring that aviation 
security standards are fully met?
    Answer. If confirmed, I will continue to work with Canada on ways 
to minimize delays and logistical difficulties, while ensuring we 
uphold U.S. laws for screening all checked bags on international 
flights entering the United States that are subsequently transferred to 
domestic connecting flights.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            John S. Pistole

    Question 1. Members of the general aviation community have 
expressed concerns about TSA's Large Aircraft Security Program (LASP) 
proposed rulemaking. My understanding is that TSA plans to respond by 
issuing a supplemental Notice of Proposed Rulemaking (NPRM) to address 
some of these concerns. Could you share how TSA under your leadership 
will engage and work with the general aviation community when 
developing and promulgating aviation security requirements?
    Answer. I understand that TSA has been involved in extensive work 
to strengthen general aviation security while also recognizing the 
importance that general aviation serves in our economy. I also 
understand that TSA is moving forward with a Supplemental Notice of 
Proposed Rulemaking and is working diligently to release a rulemaking 
that is reasonable and feasible for industry to implement, while at the 
same time maintaining an effective level of security. If confirmed, I 
look forward to working closely with the general aviation community 
regarding security requirements.

    Question 2. To enhance aviation security, the TSA began initial 
testing in October 2003 of its Screening of Passengers by Observation 
Techniques (SPOT) program. Behavior Detection Officers (BDO) carry out 
SPOT's mission to identify persons who pose a risk to aviation security 
by focusing on behavioral and appearance indicators. GAO was asked to 
review the SPOT program and issued a report in May on its lack of 
effectiveness.
    The SPOT program costs $200 million per year. However, the GAO 
study shows that at least 16 known terrorists travelled through 8 
different U.S. airports 23 times, where the program was implemented. If 
confirmed, do you plan to continue the SPOT program, and if so, what 
changes will you make?
    Answer. As a career FBI officer with extensive experience in 
counterterrorism and counterintelligence, I believe behavior analysis 
can add a critical layer to transportation security. If confirmed, I 
intend to work with TSA and the leadership of the Department of 
Homeland Security to ensure that TSA's behavioral detection program is 
an effective, science-based program that enhances transportation 
security.

    Question 3. On December 25, 2009, a passenger on Flight 253 en 
route to Detroit attempted to detonate a small explosive device shortly 
before landing. The flight had 278 passengers and eleven crewmembers on 
board. In March 2010, TSA began deploying 450 advanced imaging 
technology (AIT) units, which were purchased with American Recovery and 
Reinvestment Act (ARRA) funds. The machines cost about $175,000 each. 
What is the likelihood than an AIT unit would have detected the bomb on 
the Christmas Day suspect?
    Answer. While there is no silver bullet technology, based on my 
knowledge of the type of device used and the information I have 
received on AIT capabilities, I believe AIT can be an effective tool 
against the type of threat used on Northwest Flight 253. If confirmed, 
I will ensure that TSA continues to develop, evaluate and deploy 
technology, processes, and training to maximize the probability of 
detecting threats such as the one seen on Christmas Day.

    Question 4. When using AIT units, how will TSA protect passengers' 
privacy rights while also ensuring that passengers are properly 
screened?
    Answer. Based on the initial briefings I have received on AIT and a 
demonstration of AIT at Reagan National Airport, I understand that TSA 
employs strict guidelines to protect passenger's privacy rights and to 
ensure proper screening. The TSA officer who views the image of a 
passenger being screened is located remotely from the passenger and 
never interacts directly with the passenger to preserve anonymity . No 
cell phones, cameras, or other recording devices are permitted in the 
room where the TSA officer views the image. AIT also employs privacy 
filters on the images themselves to conceal the identity of passengers. 
Additionally, AIT units cannot store images, as the image storage 
functions are disabled by the manufacturer before the AIT equipment is 
placed in an airport.
    Moreover, passengers may opt out of AIT screening and undergo 
alternative screening--TSA has placed signs at screening checkpoints 
advising passengers of this option. I understand that these privacy 
protections are reflected in the publicly available Privacy Impact 
Assessment (PIA). If confirmed, I look forward to working with the 
Committee to ensure we are using the best possible approach to securing 
the traveling public while respecting their privacy.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                            John S. Pistole

    Question 1. When taking on new positions and challenges, people 
often rely heavily on their past experience. In your case, that would 
be law enforcement and counterintelligence matters, both critical 
areas. However, TSA was created to make our transportation system 
secure, while also ensuring the free movement of people and commerce. 
Maintaining a balance between these two directives will be a difficult 
task. If confirmed, how do you intend to approach this challenge?
    Protecting the traveling public from threats is and will continue 
to be TSA's top priority. Implementing effective security procedures 
and facilitating the flow of people and commerce are not mutually 
exclusive. It is my firm belief that the best security programs take 
into account the needs of travelers and businesses on all modes of 
transportation. If confirmed, I am committed to engaging industry 
leaders and the public to hear their views and concerns on the best 
ways to both secure our transportation systems and streamline the 
movement of people and commerce.

    Question 2. According to your questionnaire, in 2009, you indicate 
you were briefly stopped in Frankfurt, Germany, prior to boarding an 
aircraft, for inadvertently having a spare bullet in your briefcase. 
While the German screening system did catch the stray bullet, the 
security process in the U.S. failed to detect the bullet when you 
departed. While you obviously pose no threat, does it concern you that 
you easily passed through U.S. security with the bullet and, if 
confirmed, what improvements to our detection capabilities will you 
focus on?
    Yes, it concerns me. If confirmed, I'll focus efforts on improving 
training. developing more advanced techniques, and deploying the latest 
technologies to further increase our Nation's security and bolster our 
abilities to detect threats.

    Question 3. The Government Accountability Office (GAO) recently 
issued a report on TSA's ``Screening Passengers By Observation 
Techniques'' or ``SPOT'' program, in which the GAO highlighted that TSA 
failed to detect at least 16 terrorists, who had passed through eight 
different airports where TSA screeners are trained in behavior 
detection. In fairness, it is unclear whether the behavior detection 
officers encountered any of these terrorists. Nevertheless, GAO 
expressed concern that TSA does not have sufficient metrics to validate 
SPOT's effectiveness, or a strategic plan for the program, upon which 
it has spent hundreds of millions of dollars, with only tenuous 
results. While aspects of a similar program may work in Israel, the 
U.S. aviation system is much different; therefore, would you discuss 
your thoughts on such an inexact science, and how it might be used from 
a law enforcement perspective?
    As a career FBI officer with extensive experience in 
counterterrorism and counterintelligence, I believe behavior analysis 
can add a critical layer to transportation security. If confirmed, I 
intend to work with TSA and the leadership of the Department of 
Homeland Security to ensure that TSA's behavioral detection program is 
an effective, science-based program that enhances transportation 
security.

    Question 4. Following the attempted Christmas Day bombing, TSA 
announced that it planned to purchase over 1,000 whole-body imaging 
machines, also known as AIT. Although the GAO and other investigative 
entities have expressed concern about the ability of the technology to 
detect strategically placed explosives, the agency seems intent on 
moving forward with implementation. Therefore, if confirmed, will you 
plan to review this technology and modify its deployment, if necessary?
    If confirmed, I will review the effectiveness of TSA's advanced 
imaging technology's detection capabilities and work to ensure that the 
agency's deployment plans are consistent with strategic transportation 
security objectives.

    Question 4a. Will you consider deferring implementation until the 
next generation of machines is ready, with automated software to detect 
suspicious items, rather than using the very labor intensive system 
that is currently required?
    I have received preliminary briefings on Advanced Imaging 
Technology (A17). If confirmed, I will further evaluate AIT to ensure 
that the technology employed by TSA provides effective detection 
capabilities and that its continued deployment will be in the best 
interests of aviation security.

    Question 4b. Will you evaluate TSA's implementation plan, which has 
already encountered cost issues and space constraints at airports, 
resulting in the installation of only about 17 percent of this year's 
targeted number of machines?
    If confirmed, I will review TSA's deployment plans for AIT and 
ensure that TSA works closely with airport stakeholders to design 
configurations that meet local needs. I will also support the 
continuation of ongoing dialogue with stakeholders on the national 
deployment of AIT.

    Question 5. As Chair of the FBI's Personnel Board, you have been 
responsible for making countless personnel decisions; however, in the 
past 4 years, you have been the subject of six Equal Employment 
Opportunity (EEO) complaints, including gender and race discrimination 
complaints. Have these cases been resolved?
    In each of these cases and in all my work throughout my career at 
the FBI, I acted in good faith and without bias. My understanding is 
that several of these cases are pending resolution, while the others 
are closed. There has been no adverse finding against me.

    Question 5a. Would you care to elaborate on any of these 
complaints?
    As I stated, I acted in good faith and without bias in each of 
these matters, which comprise a small percentage of the hundreds of 
personnel matters I have been involved with in my role as a senior 
manager at the FBI and the chair of the SES hoard.

    Question 6. Mr. Pistole, over the past several months, you have 
been involved in the investigations of at least two transportation 
security incidents, the Christmas Day attempted bombing and the Time 
Square attempted bombing. In both cases, the accused perpetrators were 
read their legal rights. In your view, why should suspected terrorists, 
especially non-U.S. citizens, like the accused Christmas Day bomber, be 
Mirandized?
    The first priority in any terrorism investigation is the protection 
of the American public. In both cases, prior to the issuance of Miranda 
warnings, agents first engaged in vigorous questioning of the suspects 
under the public safety exception to Miranda, as recognized in the 
Quarles decision. If confirmed, I will continue to work on ways to 
utilize all lawful means to protect the American public.

    Question 7. After the passage of the USA PATRIOT Act, the FBI's use 
of National Security Letters (NSLs) to demand records in terrorism 
cases greatly increased. More concerning, as revealed in a series of 
reports by the DOJ Office of Inspector General, the FBI also began 
using so-called ``exigent letters'' to request information from 
telecommunications carriers on the basis of claimed emergencies, with a 
promise that a NSL or subpoena would soon follow. In some cases, 
however, there was no emergency and the follow-up legal process did not 
materialize. While you were not accused of any wrongdoing, the 
Inspector General named you as one of the senior officials who should 
have been more aware of the conduct of your subordinates. Would you 
please inform the Committee of your involvement with NSLs and ``exigent 
letters'' and what changes you made to the FBI's policy following the 
Inspector General's report on this matter in 2008?
    I never signed or approved an NSL or ``exigent letter.'' I learned 
of their misuse after the DIG informed me and other senior leaders 
following its first audit. Once advised, I, along with the FBI Director 
and General Counsel, led the efforts to address these problems by 
issuing several directives: (1) we eliminated the use of exigent 
letters altogether; (2) we instituted a rigorous review and approval 
protocol for the issuance of NSLs, coupled with an extensive audit and 
evaluation follow-up; and (3) we directed our Inspection Division to 
conduct follow-up audits to ensure compliance.

    Question 8. TSA has spent many years and billions of dollars 
developing name-based vetting programs, such as Secure Flight and the 
Transportation Worker Identification Credential (TWIC); however, the 
disturbing trend of so-called ``home-grown terrorists,'' who may have 
clean backgrounds but who have become inspired by radical organizations 
or individuals such as the cleric Anwar al-Awlaki, seems to expose 
vulnerabilities in the government's systems. Given your intelligence 
background, what suggestions would you offer for mitigating any 
unintended loopholes in these programs which constitute the Nation's 
last lines of defense?
    Secure Flight and TWIC are two of the multiple, layered security 
tools employed by the U.S. Government in our fight against terrorism--
ranging from personnel to technology to information sharing efforts. If 
confirmed, I look forward to working with the Committee to ensure any 
loopholes in these two important programs are addressed expeditiously.

    Question 9. TSA's mandate is to ensure the security of all modes of 
transportation, including pipelines and aspects of the maritime sector 
that are critical to my home state of Texas. The Port of Houston, for 
example, contains valuable energy and commodity facilities, which are 
vital to the state's and the Nation's economies, and which merit 
greater security protection. As Deputy Director of the FBI, you have 
much experience in prioritizing agency needs, yet at TSA, you may be 
faced with too many priorities and limited resources. How do you intend 
to improve the working partnership between TSA and the U.S. Coast Guard 
in the maritime security arena and assure Federal efficiency?
    I understand that TSA currently enjoys a strong working 
relationship with the U.S. Coast Guard. Both agencies have worked 
closely on strengthening the security of the Nation's maritime ports 
through a number of cooperative efforts, including: the Port Security 
Grant Program, which is administered in close cooperation with FEMA; a 
joint TWIC pilot program designed to deploy biometric readers; and a 
joint program designed to secure passenger ferries and cruise ships. If 
confirmed, I look forward to working with Commandant Papp and the Coast 
Guard team to further explore ways to collaboratively improve maritime 
security.

    Question 10. After an FBI sting operation, last week a Texas man 
was arraigned on charges that he tried to aid al-Qaeda. As part of the 
operation, the FBI reportedly gave the suspect a falsified TWIC, a TSA 
security card for transportation workers in the maritime sector. The 
suspect allegedly intended to use this card to board a ship bound for 
the Middle East. While this card was invalid, it highlights the 
disturbing situation created by TSA and the U.S. Coast Guard, whereby 
TWIC cards are currently used as flash passes, with no card reader 
system in place to verify whether the cardholder merited access to 
secure areas of our Nation's ports. If confirmed, will fixing TWIC be a 
top priority for you?
    If confirmed, continuing to refine and improve the TWIC program, 
including the completion of the reader pilot program, will be a 
priority for me. I understand that the U.S. Coast Guard is a key 
partner in the TWIC program, and as I noted above, if confirmed, I 
intend to work closely with the Coast Guard to further improve port 
security.

    Question 11. U.S. Army Major Nidal Hasan is accused of shooting 13 
people and injuring 32 others at Fort Hood, Texas, on November 5, 2009. 
Reportedly, prior to the incident, the FBI had monitored e-mail 
communications between Major Hasan and an Islamic radical cleric, known 
to be an al-Qaeda sympathizer. Following the shooting, the FBI 
determined that Major Hasan was not part of a larger terrorist plot. In 
the aftermath of the incident, it appears that there may have been a 
communications breakdown between the FBI and the Army, and had this not 
happened, this tragic event might not have occurred. While FBI Director 
Robert Mueller has ordered an independent review of the case, what 
lessons learned, about sharing intelligence and other matters, could 
you highlight for the Committee?
    While an independent review is currently ongoing, 1 previously led 
an internal review which identified several areas of improvement, which 
Director Mueller and I later implemented. These included:

  <bullet> Information Sharing with the Department of Defense. The FBI 
        has formalized a process for notifying the Department of 
        Defense of FBI investigations involving military personnel in 
        order to streamline the process for information sharing and 
        coordination between our agencies.

  <bullet> Supplemental Review in Significant Cases. We established a 
        supplemental Headquarters-level review process in significant 
        national security cases to limit the risk of human error in 
        analysis and to broaden the perspective of analysis in these 
        cases, all based on ``high-risk'' targets identified by NCTC.

  <bullet> Technology Improvements. We are making specific technology 
        improvements in handling sensitive information to strengthen 
        the ability of our Agents and analysts to automatically detect 
        intelligence connections that are critical to understanding and 
        uncovering threats. (Details are classified.)

  <bullet> Training for Joint Terrorism Task Force Members. We expanded 
        and strengthened training for members of our Joint Terrorism 
        Task Forces on the use of data bases and legal dissemination of 
        sensitive information to maximize access to all available 
        information to all relevant partners across the Federal 
        Government.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            John S. Pistole

    Question 1. As you well know, both the no-fly and selectee lists 
have their own minimum derogatory criteria requirements which are 
considerably more stringent than the Terrorist Watchlist's ``reasonable 
suspicion'' standard. In order to be placed on the no-fly list, ``a 
known or suspected terrorist must present a threat to civil aviation or 
national security.'' Consequently, the no-fly list is a very small 
subset of the Terrorist Watchlist which, according to DHS, contained 
approximately 4,000 people on September 30, 2009, of those 
approximately 170 were U.S. persons. In your opinion, are the current 
requirements for placement on the selectee list and no-fly list too 
stringent?
    Answer. The President has ordered a review of the entire watchlist 
system. I fully support that review, and if confirmed, will work 
closely with TSA and Federal Government leadership to implement any 
changes suggested from that review.

    Question 1a. What changes would you make to the existing 
requirements to prevent incidents like Christmas Day from occurring 
again?
    Answer. It is my understanding that the criteria for inclusion on 
the terrorism watch lists is the product of a government-wide process. 
If confirmed, I will work with my counterparts to review the existing 
watch list system, offer recommendations based on my best judgment and 
experience, and support the implementation of any changes based on that 
review.

    Question 1b. Why didn't the Watch Lists have the names of 
individuals like Shahzad and Farouk, which could have prevented the 
former from purchasing a ticket and boarding an aircraft, or stopped 
Farouk from boarding the aircraft in Amsterdam on its way to the U.S.?
    Answer. It is my understanding that in the case of Umar Farouk 
Abdulmutallab, insufficient information was presented under the 
procedures then in existence to place him on the No Fly or Selectee 
lists. Furthermore, Faisal Shahzad had in fact been placed on the 
watchlist--which resulted in his apprehension by U.S. Customs and 
Border Protection.

    Question 1c. Is the threshold for requiring a foreign visitor to 
undergo special scrutiny upon arrival in the United States considerably 
lower than the criteria for preventing that individual from boarding an 
aircraft overseas? If so, why? How often does the Transportation 
Security Administration audit international airports to ensure that the 
security apparatuses in place are compliant with U.S. security 
standards?
    Answer. TSA does not conduct passenger screening overseas. With 
respect to international airport inspections, it is my understanding 
that TSA applies a risk-based prioritization to its Foreign Airport 
Assessment Program, inspecting s international airports to ensure they 
meet international standards for aviation security.

    Question 2. With the implementation, at least domestically, of the 
Secure Flight program this August, what impacts do you believe that 
program would have had on the recent incidents on Christmas Day and in 
Times Square? Had that program been in place, would it have stifled 
those potential attacks before they got underway? Or prevented Shahzad 
from ever passing through security at Kennedy Airport?
    Answer. It is my understanding that Secure Flight is now fully 
implemented for 100 percent of domestic flights, and will be 
implemented for all direct international flights to the U.S. by the end 
of 2010. I also understand that issues of comparison of passenger 
information to the most current version of the watchlist can be 
mitigated through cutover to the Secure Flight program.

    Question 3. Deputy Director Pistole, one of the issues I discussed 
with Secretary Napolitano in her appearance late last year before this 
Committee, was screening of air cargo on passenger aircraft. I have 
long advocated for a much more intense screening regimen for commercial 
airline cargo. This concern has only been reinforced by the number of 
foiled terrorist plots to attack transatlantic airliners in the last 2 
years--most recently efforts made on Christmas Day. It is obvious 
terrorist elements still seek to use commercial aviation as their 
primary weapon for attacking Western interests. With the passage of the 
9/11 Recommendations in late 2007, Congress mandated this loophole be 
closed. And considerable progress has been made toward achieving one 
hundred percent screening, both under the previous administration's 
watch and your own. Yet, concerns remain, evidenced by the recent 
Government Accountability Office's report released at the end of March.
    It is my understanding that the Transportation Security 
Administration (TSA) recently published an interim final rule intending 
to make the Certified Cargo Screening Program (CCSP) mandatory for all 
shippers. Yet the Inspector General's report indicates there is a lack 
of personnel necessary to meet the 100 percent screening requirement. 
How would you plan on certifying all aspects of CCSP-approved 
facilities, if the Inspector General's report is correct?
    Answer. I understand that TSA has the ability to certify all 
entities who have currently applied to the Certified Cargo Screening 
Program (CCSP). TSA has 450 Transportation Security Inspectors-Cargo 
(TSI-C) currently on board with an additional 50 expected later this 
year. If confirmed, I will review the CCSP program and the IG report to 
ensure that appropriate oversight procedures are in place.

    Question 3a. According to the Inspector General's report, the TSA 
is ``ineffective'' in ensuring both compliance, and by extension, the 
security, of that cargo screened by private entities. While the 
Department has ``agreed'' with the Inspector General's assessment, I am 
concerned that will the extent of the action taken. What changes to the 
oversight process, either for Known Shippers or for CCSP participants, 
do you envision to ensure these facilities are complying with TSA 
requirements?
    Answer. If confirmed, I will review the CCSP and the Inspector 
General's report and take appropriate measures to ensure compliance 
with the program and the effective screening of air cargo on passenger 
aircraft.

    Question 4. In order to achieve the 100 percent screening threshold 
by next summer, it seems to me that the network of approved CCSP 
facilities capable of scanning cargo must be enlarged to meet the 
obvious need, given that 12 million pounds of cargo travel in 
commercial aircraft every day. Last fall, this Committee discussed a 
report by the Homeland Security Inspector General suggesting the dearth 
of available screeners would make what Congress has mandated in the 9/
11 Recommendation legislation--that is, the 100 percent screening 
requirement--unattainable. Last week's GAO report echoed those same 
concerns. Do you know the current total of TSA personnel dedicated to 
monitoring air cargo screening protocols? Do you believe that figure is 
robust enough to guarantee the entirety of this cargo is being 
screened?
    Answer. I understand that TSA is confident that industry is capable 
of attaining the 100 percent mandate in the U.S. on August 1, 2010. I 
am told that industry has already achieved over 75 percent, well in 
advance of the deadline. The Certified Cargo Screening Program (CCSP) 
locations are screening over 45 percent of the total cargo, and recent 
surveys have indicated that sufficient capacity exists at carriers, 
Indirect Air Carriers (IAC), and Independent Cargo Screening Facilities 
(ICSF) to meet the overall mandate.
    As noted above, TSA currently has 450 Transportation Security 
Inspectors-Cargo (TSI-C) on board with an additional 50 expected later 
this year. I understand that there are over 730 CCSP participant 
locations and almost 500 of them are already regulated IACs, who are 
currently inspected by Transportation Security Inspectors-Cargo (TSI-
C).

    Question 5. That 9/11 Recommendations law included a term that 
would make air cargo inspections commensurate with screening levels 
that luggage receives. I believe that even in the broadest of legal 
interpretations, I think we can all agree the Known Shipper Program and 
the CCSP Program are not ``commensurate'' with the kind screening 
luggage is subject to. It is not even clear to me that this so-called 
pre-cleared material is subject to random screening or explosive 
detection. Do you envision a program that will require at least random 
screening of material, even if it is being shipped from an entity on 
the Known Shipper list or a participant in the CCSP Program?
    Answer. I understand that TSA requires that all cargo screened 
through the Certified Cargo Screening Program (CCSP) undergo screening 
commensurate with screening levels that luggage receives. A strict 
chain of custody process for transfer is also enforced, and all cargo 
screened is subject to random inspection by TSA, including TSA and Law 
Enforcement canine teams. If confirmed, I look forward to participating 
in further reviews of the CCSP and air cargo security measures.

    Question 6. We have heard numerous estimates of the cost of 
implementing a comprehensive screening regime for air cargo. My 
understanding is that an internal study conducted by the Department 
indicates such a screening regime could cost as much as $100 billion. 
That is an absolutely stunning figure. Does the Department have a 
current estimate in terms of dollars as to how much such a massive and 
widespread technology deployment would cost?
    Answer. From what I understand, the expected costs to industry are 
significantly less than the amount you mention. If confirmed, I look 
forward to participating in further reviews of this program leading to 
the issuance of a final rule that will include a full economic analysis 
of the cost of complying with the requirements of the 9/11 Commission 
Act.

    Question 7. I'm certain that, given your background, you are 
familiar with certain cargo screening technologies such as explosive 
trace detection and X-ray portals that TSA is advocating for use by its 
partners to meet the 100 percent mandate. However, according to GAO, 
the effectiveness of those technologies has not been tested in an 
operational environment, but are already being used by industry to 
screen cargo to seem to be ``in compliance'' with the 100 percent 
screening requirement. If these technologies are not effective, why are 
they being used to fulfill the Congressional mandate on screening?
    Answer. I have only had preliminary briefings on TSA's air cargo 
security program and the technology that is used to screen cargo. If 
confirmed, I will ensure that TSA and the Department's Science and 
Technology Directorate continue to collaborate on identifying and 
testing the effectiveness of cargo screening technologies to be used to 
secure our Nation's ports.

    Question 8. Of course, one of the most hotly-debated issues 
concerning the TSA today is the claim that, in the very near future, 
Whole Body Imaging (WBI) devices will become the first line of defense 
when airline passengers are seeking access to secure areas. The TSA 
Director at O'Hare, one of America's busiest airports, was recently 
quoted as saying she believes WBI devices will be mandatory in the very 
near future. As the Administration has proposed, 450 new scanners will 
be distributed to an indeterminate number of airports by the end of 
2010. To what extent do you believe this increase in deployment will 
secure the aviation network?
    Answer. I support the use of advanced imaging technology (AIT) 
equipment as an important tool to protect the traveling public from 
evolving threats. If confirmed, I will further review the technology 
and deployment plans to ensure that threat-based intelligence continues 
to inform the agency's efforts to defeat existing and future threats to 
aviation security.

    Question 8a. Being from a state with no major hub airports, I am 
concerned that this effort will simply encourage potentially dangerous 
passengers to avoid larger airports that possess the WBI technology, 
instead choosing smaller facilities like those in Bangor, Maine by 
which to enter our domestic aviation network. Can we expect all 
commercial airports to have this technology in the very near future?
    Answer. I appreciate your concerns about the potential for 
terrorists to target smaller airports to avoid detection; however, AIT 
is just one of TSA`s many layers of security--including Federal Air 
Marshals and other trained aviation security personnel; canine teams; 
information sharing with our international and private sector partners; 
and many among other aviation security tools.
    From the briefings I have had thus far, I understand TSA's 
nationwide plan to deploy 1,000 AIT units through FY11 will include a 
range of airports.

    Question 9. The GAO recently indicated that staffing and training 
costs for the deployment of the additional 450 WBI scanners could add 
an additional $2.5 billion to the costs associated with the rollout of 
these newly purchased scanning devices. Is that cost-effective when 
very apparent gaps will remain at smaller, less traveled airports even 
if all of the new scanners are deployed?
    Answer. If confirmed, I will review and evaluate TSA's staffing 
models and deployment and operational procedures to ensure that risk-
based and cost-effective screening measures are implemented nationwide.

    Question 9a. Do you believe that the WBI devices procured by the 
Department of Homeland Security would have been triggered by the 
explosives carried on the aircraft by Mr. Farouk on Christmas Day this 
past year?
    Answer. While there is no silver bullet technology, based on my 
knowledge of the type of device used and the information I have 
received on AIT capabilities, I believe MT can be an effective tool 
against the type of threat used on Northwest Flight 253. If confirmed, 
I will ensure that TSA continues to develop, evaluate and deploy 
technology, processes, and training to maximize the probability of 
detecting threats such as the one seen on Christmas Day.

    Question 10. With the enormous national debt in mind, do you 
believe there is another, more effective way we can employ the 
increasingly scarce resources we have to improve our aviation security 
regime?
    Answer. Based on a preliminary briefing and demonstration of AIT 
capabilities, I believe AIT is an effective technology that provides 
important detection capabilities. If confirmed, I will review TSA's 
technology and operations to optimize use of scarce resources while 
maximizing security effectiveness.

    Question 11. Late last year, the GAO published a report included 
some very pertinent information regarding TSA's inability to secure 
sensitive areas at our transportation facilities. One program cited as 
failing was the lethargic pace of deploying the Transportation Worker 
Identification Credential (TWIC) Card--now, the roll-out of the 
program, which was intended to be completed at the beginning of this 
year, remains unfinished. While the TWIC Card has taken considerable 
steps forward in the last 6 months, having enrolled nearly all of the 
1.5 million port workers across the country, right now the biometric 
card is little more than a glorified identification. To fulfill its 
purpose, it must be employed in conjunction with a card reader.
    TSA spokesmen have cited ``technical difficulties'' as the reason 
behind past delays in the deployment of the card readers; I think 
you'll agree that without these devices, the whole point of the 
biometric identifier cards is rendered moot. Now we have begun a series 
of pilot programs at seven ports across the country, which is intended 
to culminate in a new final rule for use of the card readers. Can you 
elaborate further on what technical difficulties this crucial element 
of the program is facing? Have the failings of card readers been the 
result of poorly designed specifications at the Department of Homeland 
Security, or mistakes by the vendors?
    Answer. If confirmed, I will assess this issue in detail. I also 
will work closely with the U.S. Coast Guard and all key stakeholders, 
including port security directors, to fully identify and resolve issues 
affecting the full deployment and operational performance of the TWIC 
card reader program.

    Question 11a. It is my understanding that during previous testing, 
the TWIC Card Readers were unable to withstand water, as well as 
temperature extremes, among other problems that suggest it is 
unworkable in the maritime environment. This would seem to be a major 
failing if the Card is initially intended to be distributed to port 
workers. Have these problems been resolved to the satisfaction of the 
TSA, given that we have begun the pilot programs utilizing the card 
readers?
    Answer. If confirmed, I will work closely with the U.S. Coast Guard 
and all key stakeholders, including port security directors, to fully 
identify and resolve all technical issues to ensure adequate 
environmental operating performance of TWIC Card readers.

    Question 11b. Given that the program is already costing well over 
$100 million and has been plagued by delays and missteps, when can we 
assume these readers ready to be deployed?
    Answer. If confirmed, I will undertake a full assessment of the 
TWIC reader pilot program to ensure its effective completion.

    Question 12. Throughout its various incarnations, the prescreening 
program now known as Secure Flight has been plagued with delays, 
privacy concerns, and worries about opportunities for appeals by 
incorrectly detained passengers. Now, as the program is on the cusp of 
being implemented system-wide, there is growing consternation among the 
traveling public as to what is required by the TSA and the commercial 
carriers in order to travel without fear of being detained.
    My constituents, and individuals across the country, are confused 
as to exactly what TSA is requiring for travelers as to what they have 
to provide in order to travel. For example, one individual who spoke to 
the New York Times sought to disclose his full name as it appears on 
his driver's license, which is what he believed was required, but when 
booking his plane ticket, that particular carrier did not offer either 
a field for his middle name, nor the fact that he was a ``Junior,'' 
which places the name on his boarding pass in direct conflict with his 
identification. Such conflict could result in significant uncertainty 
for passengers, as, according to the article, ``travelers may or may 
not incur significant delays.'' That ambiguity epitomizes the problems 
with this program's implementation. If the airlines are not complying 
with the requirements laid out by the Homeland Security Department, 
what assurances can you offer them that they will not be detained or 
prevented from getting aboard their aircraft? What exactly is expected 
of travelers by the Department and the TSA?
    Answer. If confirmed, I will review the Secure Flight program, 
giving careful consideration to the important issues you have raised to 
ensure that passenger data is accurately collected and that TSA clearly 
and effectively communicates what is expected from passengers under the 
program.

    Question 13. To switch gears for a moment, I am certain you are 
aware of November's report out of Chicago that a number of TSA 
screening checkpoints were compromised at both O'Hare and Midway 
Airports. Astonishingly, individuals posing as passengers were able to 
enter secure areas of O'Hare and Midway with just a credit card--which 
a number of security experts are claiming is one of the easiest forms 
of identification to falsify. This particular problem was specifically 
identified by the 9/11 Commission in their report to Congress. Can you 
explain to the Committee what steps are being taken, if any, to prevent 
these sorts of security failures--particularly at one of America's 
busiest airports?
    Answer. I understand that TSA has a specific list of acceptable 
identification documents, posted to TSA's public website, that can be 
used to access the sterile area and are checked by TSA Travel Document 
Checkers. A single credit card is not an acceptable form of 
identification. TSA has implemented the Identification Verification 
Call Center (IVCC) process to further verb the identity of an 
individual and ensure their names are properly vetted if the person 
does not have an acceptable form of identification. If the IVCC process 
cannot confirm a person's identity, he or she will be denied access to 
the sterile area. If confirmed, I will ensure TSA continues to focus on 
enhancing airport security by effectively verging the identities of 
individuals prior to granting them access to the sterile area.

    Question 14. The concept of pushing our borders out has been the 
primary thematic aspect of our port security plan, and it is one that I 
wholeheartedly support. My interest is the advancement of the Secure 
Freight pilot program and the willingness or even capability of our 
trading partners to meet the kind of standards we are imposing on the 
global supply chain. With over 700 ports that ship to the U.S., meeting 
those standards is a tall order for nearly all of our trading partners. 
According to the GAO, one of the failings in the implementation of 
Secure Freight program, and really, in the entire litany of port 
security programs, has been an inability of CBP and their partners to 
define methods of assessing any increases in security, and efficiently 
collecting and examining that data if it is collected. In short, we 
have resources and manpower dedicated to a host of programs that we 
suspect are enhancing our security, but we have no certainty in terms 
of data that our ports are any more secure.
    The Administration at one point indicated that it hoped to reduce 
the number of ports shipping to America from over 700 to 100. This 
minimizes the potential areas of risk, which is admirable conceptually. 
But is it practicable?
    Does restraining the number of ports available to foreign shippers 
engaging in trade with the U.S. at the same time restrain movement in 
the supply chain? How can we be assured that, by eliminating more than 
75 percent of the available ports to minimize risk, we are not 
inadvertently creating choke points for cargo shipments?
    The Belgian government, for example, has suggested that configuring 
the port of Antwerp, a massive international facility, to meet the 
requirements of our 100 percent screening regime could cost the port 
over a billion Euros! If one of our trading partners determines that it 
is not worth it to meet the criteria and end that aspect of their 
relationship with the U.S., what affect does that on our global 
economy? On the American economy? What alternatives can the U.S. offer 
these nations to sustain a high level of security while permitting 
certain trading relationships to continue?
    Some of our European trading partners believe a complete deployment 
and operation of total scanning technology could only occur if a new 
international agreement is reached. Do you agree with this assessment, 
and if so, would protecting the global supply chain and ensuring that 
the program is improving security require new agreements with the 
entire host of nations who ship to American ports? How long could such 
a process take?
    Do we have, either in development or in testing phases, scanning 
portals capable of handling transshipment cargo? If not, do we fall 
back to a more risk-based screening approach in dealing with 
transshipment traffic?
    Answer. I understand that the Secure Freight Program and the 
screening of maritime cargo is the responsibility of U.S. Customs and 
Border Protection (CBP).

    Question 15. Since the attacks of 9/11, the General Aviation 
community appears to have been a partner in the enhancement of security 
by developing and implementing a large number of workable and effective 
security measures. These include an Airport Watch program, the 
monitoring of aircraft financing transactions, a new requirement for 
government issued, tamper-proof photo-IDs for pilots, and guidelines 
for security at general aviation airports. As you probably know, the 
Large Aircraft Security Program (LASP) proposed late last year by TSA 
raises several concerns for the General Aviation community in my state. 
It appears to ``cut-and-paste'' security measures specifically designed 
for commercial operations on to general aviation operations. This fails 
to recognize the vast differences between commercial and GA operations. 
The proposal also would apply to smaller, personal aircraft, not just 
large ones as the title implies.
    I've been told that TSA is making changes to the original proposal, 
and will have Supplementary Proposal of Rulemaking released sometime 
this year. What requirements do you envision will be placed on general 
aviation as a result of this new rulemaking effort?
    Answer. I understand that TSA has been involved in extensive work 
to strengthen general aviation security while also recognizing the 
importance that general aviation serves in our economy. I also 
understand that TSA is moving forward with a Supplemental Notice of 
Proposed Rulemaking and is working diligently to release a rulemaking 
that is reasonable and feasible for industry to implement, while at the 
same time maintaining an effective level of security. If confirmed, I 
look forward to working closely with the general aviation community 
regarding security requirements.

    Question 15a. Do you expect that taxes will rise dramatically to 
pay for this new program--which in its previous incarnation included 
all manner of new requirements, most overseen by TSA-approved 
contractors paid for by general aviation, particularly taxes on general 
aviation airports, owners and operators?
    Answer. I have not been involved in a review of the economic 
analysis of any new proposed regulation addressed security for general 
aviation. If confirmed, I look forward to participating in a review of 
the draft rule and ensuring that this and all rulemaking efforts 
provide effective increases in security and are reasonable for 
regulated parties to implement.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jim DeMint to 
                            John S. Pistole

    Question. Mr. Pistole, you indicated during your confirmation 
hearing that you would have to consult with the Secretary to see 
whether you will be able to provide the Committee with a copy of your 
review and recommendation regarding whether collective bargaining will 
be allowed at the TSA. Have you been able to discuss the matter with 
the Secretary and will you be able to provide the Committee with a copy 
of your analysis and recommendation?
    Answer. While I have not yet discussed post-assessment procedures 
with the Secretary, I understand that the Department will share 
information from the review with the Committee.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            John S. Pistole

    Question 1. Mr. Pistole: As you know, on Tuesday the White House 
issued a directive to all agency heads to trim at least 5 percent from 
their budgets. The TSA recently awarded an IT services contract that 
was $52 million more expensive than a lower bid from a contractor with 
almost the same technical solution ratings. Given the fiscal crisis 
facing our Nation, does this make sense for taxpayers?
    Furthermore, the procurement for this contract appears to have been 
poorly handled. It has been going on for more than 2 years and has been 
the subject of at least two successful protests and a third is pending 
with GAO. During the course of those protests, the GAO found that there 
were irregularities in the acquisition process. In addition, due to the 
length of time that has passed since the proposal for IT services was 
first issued, it is my understanding that the scope of work sought by 
TSA may not accurately reflect its current needs.
    It seems to me that given the excess cost for the current contract 
award and the flaws in the solicitation process, TSA should undertake a 
fresh, independent review of this procurement and report back to 
Congress on plans to address concerns about this procurement and plans 
to improve TSA's acquisition process. Given the Federal Government's 
budget crisis, we certainly want to ensure that TSA is procuring only 
those services that accurately reflect its needs at the most 
advantageous price.
    Answer. While I am not aware of the specifics of this particular 
procurement, it is my understanding that this acquisition has been 
conducted utilizing best value procurement techniques under which 
technical performance is measured against cost in order to ensure the 
government obtains the best value for required supplies or services.
    If confirmed, I will work to ensure that TSA's procurement policies 
reflect current security requirements while prioritizing fiscal 
responsibility.

    Question 2. While you don't have extensive background when it comes 
to aviation, I would like to know more about what you see as TSA's role 
when it comes to general aviation--including smaller airports in South 
Dakota and across the country?
    Answer. I understand that TSA has been involved in extensive work 
to strengthen general aviation security while also recognizing the 
importance that general aviation serves in our economy. I also 
understand that TSA is moving forward with a Supplemental Notice of 
Proposed Rulemaking and is working diligently to release a rulemaking 
that is reasonable and feasible for industry to implement, while at the 
same time maintaining an effective level of security. If confirmed, I 
look forward to working closely with the general aviation community 
regarding security requirements.

    Question 3. I pose this question because a number of general 
aviation users in South Dakota have inquired about recent actions by 
TSA when it comes to what they believe are controversial Security 
Directives that mandate commercial airports conduct security threat 
assessments on all general aviation users that have access to the 
airport. While I can understand the need to conduct threat assessments 
to improve security at commercial airports, what balance would you 
strive for to ensure that general aviation users aren't impeded when it 
comes to the freedom they currently enjoy when traveling from one 
airport to another?
    Answer. As I noted above, I understand that, after extensive 
coordination with the general aviation community, TSA is moving forward 
with a revised rulemaking that recognizes the issues you highlighted If 
confirmed, I look forward to actively participating in this process.

    Question 4. What do you see when it comes to the future of Security 
Directives, especially as it relates to the manner in which they are 
issued and whether or not you believe that such measures should be 
subject to public comment and review?
    Answer. I believe that security directives should continue to be 
used to address security threats that require an expedited response, 
but should only be issued where warranted If confirmed, I will work to 
balance the need for prompt and effective response with public comment 
and review.

    Question 5. Should airports be reimbursed for costs related to 
implementation of security directives?
    Answer. While the Federal Government has a significant role in 
aviation security, I believe that there are shared responsibilities 
with regulated parties.

    Question 6. Seeing that only 17 percent or approximately 80 out of 
450 Advanced Imaging Technology screening machines have been installed 
across the country from funding provided under the stimulus bill, are 
you comfortable with this pace of deployment?
    Answer. From briefings I have had, I understand that TSA expects to 
deploy all 450 units by the end of this calendar year.

    Question 7. In a February 2009 report to Congress on the 
effectiveness of TSA's surface transportation security inspectors 
(STSIs), the DHS Inspector General noted that TSA reorganized its 
inspector force to have surface-focused inspectors report to aviation-
focused supervisors, rather than surface- focused supervisors. Two-
thirds of the inspectors hired after the reorganization had no rail or 
mass transit experience.
    The IG concluded that, ``The current TSI command structure inhibits 
TSI effectiveness'' and recommended--3 times--that TSA place surface 
inspectors under the authority of a TSA headquarters official 
responsible for surface transportation. TSA rejected the recommendation 
each time, and the IG's office ultimately backed off the proposal. If 
confirmed, can you assure us you will reassess this policy?
    Answer. If confirmed, I will review TSA `s organizational structure 
and processes to ensure the agency can effectively respond to current 
and future security threats in all modes of transportation.

    Question 8. Aviation aside, what do you think are the greatest 
security threats to the Nation's transportation systems?
    Answer. The U.S. faces an ever-evolving terrorist threat aimed at 
exploiting perceived vulnerabilities in each of our transportation 
systems. If confirmed, I will ensure that TSA continues to work with 
the intelligence community, our Federal, state, local and international 
partners and industry to detect and disrupt current threats and further 
strengthen security across all modes.

    Question 9. If confirmed, what strategies and actions will you 
implement to enhance the security of our rail, highway, and pipeline 
networks?
    Answer. I understand that TSA just completed a Freight Railroad 
Security Risk Assessment. If confirmed, I will conduct an in-depth 
review of surface transportation security needs that will employ risk 
assessments and utilize current intelligence. From my experience with 
the FBI, I believe that training, information-sharing with state, 
local, tribal, international and private sector partners, and extensive 
use of drills and exercises are important components of a robust 
security system.

    Question 10. There are over 2 million miles of pipeline across the 
country, including over 6,000 miles in South Dakota, carrying oil, 
natural gas, and other products. Given that a threat to our Nation's 
pipelines could have grave economic consequences, how should TSA use 
risk management to recalibrate its attention to critical threats to the 
Nation's pipelines (and energy supply)?
    Answer. Although I have not had an opportunity to receive in-depth 
briefings on the methods the Transportation Security Administration 
(TSA) has employed to reduce risk to our pipeline system, I support a 
risk-based approach. I do understand that TSA's primary focus has been 
on those pipeline systems that have the highest energy throughput and 
potentially the highest impact in the event of a disruption. If 
confirmed, I will review the progress made to date and assess the 
strategy for future efforts.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Sam Brownback to 
                            John S. Pistole

    Question 1. The Large Aircraft Security Program (LASP) Notice of 
Proposed Rulemaking (NPRM) was introduced by the TSA at the end of the 
last Administration and elicited more than 7,000 negative public 
comments because it did not address security issues in an effective, 
practical manner. Since then, the staff at the TSA has worked toward a 
new Supplemental NPRM which would take into consideration the comments 
filed to the original proposal as well as through direct TSA engagement 
with industry. Unfortunately, TSA missed a self imposed deadline to 
issue the Supplemental NPRM by the end of last year, and it's not clear 
when it will be released.
    Are you committed to moving forward on this Supplemental NPRM and 
issuing it as soon as possible? Can you also discuss the general 
approach that you would take with respect to engaging constructively 
with industry on new security requirements? Would you ensure these 
proposals are targeted toward specific risks and fully consider the 
practical implementation of these proposals?
    Answer. I understand that TSA is moving forward with a Supplemental 
Notice of Proposed Rulemaking for the Large Aircraft Security Program 
(LASP). If confirmed, Hook forward to working closely with the general 
aviation community to ensure that the rulemaking effort reflects 
reasonable and feasible standards for industry to implement, while 
ensuring an effective level of security.

    Question 2. The 2003 FAA reauthorization bill required the TSA to 
conduct security audits of all FAA certificated foreign repair 
stations. However, the TSA never fulfilled this requirement, and as a 
result Congress again required an audit in the 9/11 Recommendations 
bill and prohibited the FAA from certifying any new stations until the 
rule was finalized. TSA missed a 2008 deadline for completing the rule 
and as a result maintenance providers have been unable to open any new 
foreign repair stations. TSA is now in the process of finalizing a 
notice of proposed rulemaking (NPRM) on the foreign repair station 
security rule, having sent it to OMB for review.
    Are you familiar with this issue? Will you work to get this NPRM 
through OMB as quickly as possible when you are confirmed? Will this be 
a priority for you? Will you allow for adequate stakeholder input and 
FAA coordination to ensure effective implementation of the final rule?
    Answer. I understand that TSA issued a Notice of Proposed 
Rulemaking regarding Aircraft Repair Station Security in December 1009 
and that industry comments have been received and are under review. 
Recognizing the value of partnership and coordination, I can assure you 
that if confirmed, I will ensure that TSA will continue its efforts to 
seek input from its government and industry partners as the agency 
works toward completion of the Final Rule.

    Question 3. We have seen the TSA repeatedly use Security Directives 
(SD) to vastly expand existing requirements without a compelling 
emergency security threat. TSA needs to do a better job of identifying 
immediate threats that require emergency action, and whether those 
actions should be implemented through rulemaking. The most recent 
example involves the expansion of security credentialing requirements 
to tens-of-thousands of pilots and employees at airports and aviation 
manufacturers without due consideration and process of the 
Administrative Procedures Act. This resulted in SD-1542-8F (followed by 
-8G) which was developed last summer. When should TSA use Security 
Directives instead of rulemaking under the APA? What criteria would you 
use to make these decisions?
    Answer. I believe that security directives should be used to 
address security threats that require an expedited response, but only 
where warranted. If confirmed, I will work to balance the need for 
prompt and effective response with public comment and review.

    Question 4. Under President Obama, OMB has issued guidance 
outlining agency and department heads' duty to carefully consider 
contractor policies to ensure the government does not ``spend more than 
it should to get the job done'' and that in this economic climate the 
government has ``a responsibility to make sure every dollar collected 
from taxpayers is spent wisely,'' The Office of Federal Procurement 
Policy has called on agencies to fully consider the agency's actual 
needs in order ``to minimize risk and maximize the value of Government 
contracts.''
    As you know, on Tuesday the White House issued a directive to all 
agency heads to trim at least 5 percent from their budgets. The TSA 
recently awarded an IT services contract that was $52 million more 
expensive than a lower bid from a contractor with almost the same 
technical solution ratings. Given the fiscal crisis facing our nation, 
does this make sense for taxpayers?
    Furthermore, the procurement for this contract appears to have been 
poorly handled. It's been going on for more than 2 years and has been 
the subject of at least two successful protests and a third is pending 
with GAO. During the course of those protests, the GAO found that there 
were irregularities in the acquisition process. In addition, due to the 
length of time that has passed since the proposal for IT services was 
first issued, it is my understanding that the scope of work sought by 
TSA may not accurately reflect its current needs.
    It seems to me that given the excess cost for the current contract 
award and the flaws in the solicitation process, TSA should undertake a 
fresh, independent review of this procurement and report back to 
Congress on plans to address concerns about this procurement and plans 
to improve TSA's acquisition process. Given the Federal Government's 
budget crisis, we certainly want to ensure that TSA is procuring only 
those services that accurately reflect its needs at the most 
advantageous price.
    Answer. While I am not aware of the specifics of this particular 
procurement, it is my understanding that this acquisition has been 
conducted utilizing best value procurement techniques under which 
technical performance is measured against cost in order to ensure the 
government obtains the best value for required supplies or services.
    If confirmed, I will work to ensure that TSA's procurement policies 
reflect current security requirements while prioritizing fiscal 
responsibility.

    Question 5. I've heard multiple stories about the ability of first 
responders to communicate efficiently and effectively with other first 
responders. Whether it is TSA officers working with local law 
enforcement, fire or other Federal agencies, having the technical 
capability to talk to each other is critical.
    Throughout the various TSA security programs and DHS funding 
streams, we see an immediate need to address and solve the problem of 
interoperability with security technologies that are currently 
deployed. We would like to see TSA and DHS apply interoperability 
requirements to all funding streams from direct grants to agency 
procurements. If you are confirmed, will you please provide this 
committee, in the first 30 days, a procurement action plan and issue 
specific guidance to the TSA's procurement officers and program leaders 
that requires an interoperability standard or criteria be included in 
all future and, possibly, ongoing procurement activities?
    Answer. I agree that communications interoperability between first 
responders is a key requirement for the effective management of 
security incidents. If confirmed, I will work with Transportation 
Security Administration leadership and our security partners across the 
country to further the development and application of interoperable 
communications standards in the transportation security environment and 
I will be certain to keep both you and the Committee updated.

    Question 6. One of the serious issues with airport security is the 
fact that there are several systems used to secure the facility which 
are managed by different organizations or agencies within the airport. 
What are your plans to unify the multiple security systems and leverage 
them more effectively within an airport to provide better situational 
awareness, thus improving passenger safety and airport efficiency?
    Answer. Although I have not had an opportunity to engage in an in-
depth discussion on this issue, I understand that each airport operates 
under an Airport Security Program that details the specific roles and 
responsibilities of each entity involved in the security of that 
airport's unique operating environment and describes how these entities 
work together. If confirmed, I will review the systems and procedures 
currently used to secure airport facilities to determine if there are 
opportunities to implement security improvements and efficiencies that 
could be applied nationwide.

    Question 7. What was the total dollar amount paid to Transportation 
Security Officers (TSOs) in overtime salary in FY 2009?
    Answer. I understand that TSA paid its Officers $61.4 million in 
overtime in FY 2009.

    Question 8. What systems are currently in place to track overtime 
payments to TSOs?
    Answer. I am told that the National Finance Center (NFC) Payroll 
system is the official system of record for pay information, including 
overtime. The NFC is supported by Time and Attendance data recorded and 
certified in the WebTA system by supervisors.
    I further understand that TSA is able to extract reports on pay, 
hours worked and other information from the NFC system and uses this 
information to manage pay activity.

    Question 9. Does the TSA have an authorized budget for overtime for 
TSOs?
    Answer. From my initial briefings, I understand that TSA has the 
authority to incur overtime and budgets for it accordingly.

    Question 10. What is the nominee's view on sole source contracting 
for projects over $5 million?
    Answer. While sole source contracting may be necessary in some 
instances, it is my view that these acquisitions, regardless of value, 
should be limited, adequately justified, approved by senior acquisition 
officials, and transparent to industry and the public.

    Question 11. How often are sole source contracts reviewed to ensure 
satisfactory delivery of products and services?
    Answer. While I do not have specific knowledge of TSA's current 
procedures for reviewing sole source contracts, I understand that all 
TSA contracts are reviewed on a continual basis based upon overall size 
and risk to ensure satisfactory delivery of products and services.

    Question 12. What systems does the TSA have in place to protect 
against identity theft of TSOs personal information, such as ID cards? 
Are biometric systems being used on the work sites?
    Answer. While I do not have specific information on current steps 
that TSA has taken to protect its employees from identity theft, I take 
this issue very seriously. Identity theft is not only a financial crime 
but can be a major security issue when it comes to identification 
documents of those who serve in critical security positions. If 
confirmed, I will take appropriate steps to protect the personal 
information of all TSA employees including its Officers to ensure our 
aviation systems remain safe.

    Question 13. The Federal Aviation Administration (FAA) has noted 
that standard dry-chemical fire extinguishers pose a threat to 
airplanes if they are discharged on the plane and therefore bars them 
on commercial aircraft. The Transportation Security Administration 
(TSA) recognizes this threat and therefore, prohibits passengers from 
carrying them through the security checkpoint. A basic fire 
extinguisher can cause tremendous damage if discharged on an airplane 
because it is corrosive to electronic equipment and can cause 
tremendous visual and respiratory impairment to the pilots. However, 
once through security, airport concourses are lined with unsecured and 
unmonitored dry chemical fire extinguishers that can be removed without 
any central detection and carried onto an airplane and deployed into 
the cockpit. Are you aware of the danger posed by unsecured fire 
extinguishers in airport concourses?
    Answer. I am not specifically familiar with this issue. If 
confirmed, I will review this matter.

    Question 14. What measures would you take as Administrator to 
ensure that fire extinguishers are not carried onto airplanes?
    Answer. I am not specifically familiar with this issue. If 
confirmed, I will review this matter.

    Question 15. Do you plan to require airports to address how they 
are dealing with the concourse fire extinguisher threat?
    Answer. I am not specifically familiar with this issue. If 
confirmed, I will review this matter.

    Question 16. The benefits of the DCA Access Standard Security 
Program (DASSP) in terms of numbers of General Aviation aircraft 
operating in/out of DCA continue to be limited due to the relatively 
few airports approved as DASSP gateways. Many key airports for general 
aviation operations lack airline service and therefore a local TSA 
presence and are unable to gain DASSP gateway approval due to 
insufficient TSA resources. For these airports, a third party screener, 
funded by the airport and its tenants could be used to mitigate the 
impact on TSA staffing, however this is not currently allowed under the 
DASSP. If confirmed as TSA Administrator, would you support the 
inclusion of third party screeners as part of the DASSP and overall 
growth in the number of airports approved as DASSP gateways?
    Answer. If confirmed, I will look into the accessibility of general 
aviation flights into Ronald Reagan Washington National Airport to 
ensure that the program operates effectively for potential users while 
maintaining the necessary level of security.

    Question 17. Under what circumstances should sole source 
contracting be used?
    Answer. While sole source contracting may be necessary in some 
instances, it is my view that these acquisitions, regardless of value, 
should be limited, adequately justified, approved by senior acquisition 
officials, and transparent to industry and the public.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
